<html>
<title> - WHAT THE OCTOBER WILDFIRES REVEALED ABOUT PREPAREDNESS IN SOUTHERN CALIFORNIA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  WHAT THE OCTOBER WILDFIRES REVEALED ABOUT PREPAREDNESS IN SOUTHERN 
                               CALIFORNIA 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2007

                               __________

                           Serial No. 110-162

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

49-627 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
TOM LANTOS, California               DARRELL E. ISSA, California
ELIJAH E. CUMMINGS, Maryland         DAN BURTON, Indiana
DIANE E. WATSON, California          CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER S. MURPHY, Connecticut   JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
BRIAN HIGGINS, New York              BRIAN P. BILBRAY, California
BRUCE L. BRALEY, Iowa
                    Jaron R. Bourke, Staff Director





















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 10, 2007................................     1
Statement of:
    Morris, Tony, founder and researcher, Wildlife Research 
      Network; Jeffrey Bowman, former fire chief, city of San 
      Diego Fire-Rescue Department; Tracy Jarman, fire chief, 
      city of San Diego Fire-Rescue Department; P. Michael 
      Freeman, fire chief, Los Angeles County Fire Department; 
      Chip Prather, fire chief, Orange County Fire Authority; 
      Ruben Grijalva, director, Department of Forestry and Fire 
      Protection; and Ron Roberts, chairman, Board of 
      Supervisors, County of San Diego...........................    16
        Bowman, Jeffrey..........................................    33
        Freeman, P. Michael......................................    45
        Grijalva, Ruben..........................................    65
        Jarman, Tracy............................................    34
        Morris, Tony.............................................    16
        Prather, Chip............................................    54
        Roberts, Ron.............................................    72
    Ward, Nancy, Region IX Administrator, FEMA; and Mark Rey, 
      Undersecretary for National Resources and the Environment, 
      U.S. Department of Agriculture.............................    95
        Rey, Mark................................................   110
        Ward, Nancy..............................................    95
Letters, statements, etc., submitted for the record by:
    Freeman, P. Michael, fire chief, Los Angeles County Fire 
      Department, prepared statement of..........................    47
    Grijalva, Ruben, director, Department of Forestry and Fire 
      Protection, prepared statement of..........................    67
    Jarman, Tracy, fire chief, city of San Diego Fire-Rescue 
      Department, prepared statement of..........................    36
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        Prepared statement of....................................     5
        Prepared statement of Mr. Zev Yaroslavsky, LA County 
          supervisor.............................................    42
    Morris, Tony, founder and researcher, Wildlife Research 
      Network, prepared statement of.............................    18
    Prather, Chip, fire chief, Orange County Fire Authority, 
      prepared statement of......................................    56
    Rey, Mark, Undersecretary for National Resources and the 
      Environment, U.S. Department of Agriculture, prepared 
      statement of...............................................   112
    Roberts, Ron, chairman, Board of Supervisors, County of San 
      Diego, prepared statement of...............................    74
    Ward, Nancy, Region IX Administrator, FEMA, prepared 
      statement of...............................................    97


  WHAT THE OCTOBER WILDFIRES REVEALED ABOUT PREPAREDNESS IN SOUTHERN 
                               CALIFORNIA

                              ----------                              


                       MONDAY, DECEMBER 10, 2007

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                     Fallbrook, CA.
    The subcommittee met, pursuant to notice, at 9 a.m., in the 
Board Meeting Room at the Fallbrook Public Utilities District 
in Fallbrook, CA, Hon. Dennis J. Kucinich (chairman of the 
subcommittee) presiding.
    Present: Representatives Kucinich, Issa, and Bilbray.
    Staff present: Jaron R. Bourke, staff director; Noura 
Erakat, counsel; and Jean Gosa, clerk.
    Mr. Kucinich. Good morning and welcome. The Domestic Policy 
Subcommittee of the Oversight and Government Reform Committee 
will come to order.
    Welcome to Congressman Issa, at whose request this hearing 
is being held. Congressman Issa, thank you. We are joined by 
Congressman Bilbray, also from the area, who has been similarly 
interested in this, and I want to thank Mr. Bilbray for joining 
us today as well, and without objection, Members will have 5 
days to be able to submit any additional testimony for the 
record.
    On October 21st, a wildfire began in Witch Creek, a rural 
area in the foothills of San Diego. That same day, Governor 
Schwarzenegger declared a state of emergency. President George 
Bush issued a major disaster declaration for the State of 
California and ordered Federal aid to supplement State and 
local response efforts.
    At the height of the disaster, 23 fires were burning. By 
the time all the fires were contained, 517,267 acres of land 
had been burned, 2,233 homes were destroyed and 10 people lost 
their lives.
    The damage caused by the 2007 Southern California wildfires 
could have been much worse, if it were not for the capable 
response efforts of local, State and Federal emergency 
responders.
    The absence of additional fires in San Diego, surrounding 
counties, and in Northern California, also helped make the 
story of Southern California's wildfires a success. Everyone, 
from local, State and Federal officials, to media outlets, has 
described the response to the wildfires as a wonderful success, 
and the emergency responders and the intergovernmental 
coordination that managed firefighting resources were performed 
competently, effectively, and professionally.
    But if the October experience is to be a window on to the 
extent of California's preparation for future wildfires, then 
we have to consider how those same fire responders and 
intergovernmental coordination managers would have fared if 
they had been confronted with a different fire, or a number of 
simultaneous fires in several different counties. How much of 
October's success can be attributed to adequate training, 
management and resources, and how much of it was a function of 
luck, that California did not have other fires to contend with 
at the same time?
    The fires that burned throughout Orange, Los Angeles, and 
San Diego counties are certainly not the last to impact 
Southern California. Southern California has historically 
endured major fires. It did so in 1970, 1977, 1980, 1985, 1987, 
1993, 2003, and now, in 2007.
    However, not only have major fires historically been less 
frequent than they have been recently, but they've also been 
less severe. Both the 2003 Cedar fire and the 2007 Southern 
California wildfires have been described as ``100 year'' fires. 
Unfortunately, future trends indicate that such disasters are 
on the rise.
    According to the Wildfire Research Network, the frequency 
or voracity of wildfires will increase in the near future due 
to global warming, increasing wildland-urban interface and 
aging vegetation.
    According to the Department of Forestry and Fire 
Protection, 10 trends constitute the ``Wildfire Frequency and 
Intensity Loop,'' including a rise in global warming and a 
growing population in the wildfire-urban interface.
    Is Southern California adequately prepared for these major 
fires? Disaster preparedness involves several considerations 
such as prevention measures, public education and preexisting 
agreements. Most importantly, however, disaster preparedness 
means having the proper resources and having enough of them.
    In California, resources are owned by local responders, 
bolstered by State resources as well as mutual aid agreements 
within the State, and supplemented by Federal fire and 
emergency agencies. Different counties have vastly differing 
levels of local response capability.
    The Los Angeles County Fire Department possesses a total of 
13 firefighting aircraft during fire season. Orange County Fire 
Department possesses two aircraft. San Diego County has two 
helicopters. The county of San Diego spent nearly $130 million 
to enhance its wildfire prevention, preparation and 
responsibilities. These improvements included purchasing two 
wildfire helicopters, improving its emergency communication 
system, removing 417,000 dead, dying and diseased trees, and 
implementing a Reverse 911 system.
    All of these resources were mobilized to deal with the 
October fires.
    Additionally, the State of California contributed its 13 
National Guard helicopters and 23 air tankers. Yet all of these 
resources were not enough on their own. California tapped into 
the Emergency Management Agency Compact, the EMAC system, and 
obtained assistance from Arizona, Idaho, North Carolina, 
Colorado, New Mexico, Nevada, Wyoming, Washington and Oregon.
    The Federal Government also supplemented local and State 
resources. The U.S. Forest Service, of the Department of 
Agriculture, has approximately 10,000 firefighters, three to 
400 fire engines, 30 to 40 helicopters, 8 fixed air tankers 
that it made available to California during its battle with the 
2007 fires.
    It took everything the counties, and State of California 
could muster, and more from the Federal Government, to contain 
and extinguish the October fires. Our witnesses have told us, 
again and again, that had there been any fires in Northern 
California, as there were in 2003, that some of the resources 
used to fight the October fires would not have been available.
    Imagine. Had there been only four additional fires in 
Northern California, there would not have been sufficient 
resources to respond to all of them. Southern California was 
indeed lucky, lucky because no other fires burned in California 
during those last few days of October. But what if Southern 
California is not so lucky the next time, when in four to 5 
years, another ``100 year'' fire ignites and consumes Southern 
California, and this time, five fires also burn in the Oakland 
Hills? Then it might matter that San Diego County is the only 
county in California without a fire department.
    Instead, the county has a total of 65 volunteer-based and 
paid fire agencies. In 2004, 81 percent of voters in San Diego 
County approved Proposition C, which queried support for a 
consolidated system and was to be funded with reprioritized 
revenues, but no new revenues.
    Due to its lack of a county fire department, San Diego 
County is dependent on San Diego's city fire and rescue 
department as well as its neighboring counties with well-
resourced fire departments.
    Today we will hear from several witnesses, on our first 
panel, as to whether or not this arrangement is sustainable. 
The next time there's a ``100 year'' fire, how will the Modular 
Airborne Firefighting System [MAFFS], help? The MAFF system was 
not put to use during the recent wildfires because the Forest 
Service refurbished tags were not ready for the California 
National Guard's new J model C-130 aircraft.
    According to the Fire and Aviation Management, the fully 
equipped JC-130's will be ready in May or June 2008. The next 
time, will a new agreement correct for California Fire's 
failure to utilize Marine helicopters? According to Cal Fire, 
they have addressed this problem by entering into a short-term 
agreement with the Marines in the direct aftermath of the 
fires.
    More recently, Cal Fire and the Marines continued their 
discussions on a long-term operating plan.
    Our job today is to ask our witnesses what more could be 
done, and will be operable in Southern California, to ensure 
that any future response is as successful as it fortunately was 
in October 2007.
    Thank you, and at this point, I want to turn to the ranking 
member of this committee, Mr. Issa of California, who has been 
a partner in all matters relating to this committee. He and I 
work cooperatively. I am glad to be here today, Darrell, and to 
work with you on this, and I know the district is very 
appreciative of the efforts that you continue to make. So, 
thank you.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Issa. Thank you, Mr. Chairman, and this hearing has 
been somewhat characterized as my ``Christmas present'' from 
the committee, and I actually believe it is. I realize your 
time is taxed very heavily, and you could be almost anywhere, 
and I am glad that you are here and looking into a matter in 
which the Federal, State and local resources were so recently 
taxed to the absolute limit, and as you said in your opening 
remarks, quite rightfully so, this is a situation in which we 
were lucky.
    We did a better job than we did in the Cedar fire in 2003, 
but it's very clear, we also got lucky.
    In today's hearing, I am very hopeful that as we look--in 
my history since 1977, I was lucky enough to arrive as a 2nd 
lieutenant, in time for the Los Padres fire, where I was 
stationed at Fort Hunter-Liggett, in the middle of that fire, 
which burned for more than a month.
    I learned then, with bulldozers, and my Engineer Co., that 
in fact we don't put out fires. We, in fact, let them burn. The 
reality, in California, is that we produce countless millions 
of tons of flammable material every year. Sooner or later, 
either we will burn it, we will cut it, or God will burn it. 
Our fires have a tendency to be a mixture of we have cut a 
little bit, on occasions we burned a little bit, and 
unfortunately, between arsonists and lightning and other 
natural events, we guarantee that we will see fires that we 
have to, in fact, control while the fuel is burned again.
    As a Federal officer, I am keenly aware that often, we have 
been the problem to clearing, prior to a spontaneous event. I 
hope that we can, in the future, on a bipartisan basis, realize 
that habitat is preserved by small burns and destroyed by 
hundreds of thousands of acres burning at once. That is the 
lesson that the environmentalists, and, in fact, the men and 
women before us today have learned the hard way, that in an 
effort to not burn, to save wildlife, we ultimately often lose 
far more wildlife and, of course, the lives of men and women 
fighting the fire, and our citizens.
    I believe that we are going to be stuck between two 
realities here today that are not Federal.
    One, should we, in San Diego County, spend $100 million to 
purchase and equip additional fire capability, and $40 million 
a year, every year, to meet somebody's idea of a minimum 
tasking level?
    Or would those resources, and others, be more effectively 
placed into--and I say this with some trepidation--a surge 
capability for not just San Diego County but for all the 
counties of California and the West? That is probably the 
biggest challenge we have.
    Earlier, our senior senator, Senator Feinstein, held a 
hearing, and the hearing seemed to get very much tied up into 
the idea that if San Diego would just spend a couple a $100 
million here and a couple a $100 million there, we would not 
have had the damage we had.
    I think it is very clear, and I think our testimony will 
support, that we would have had these fires, hundreds of 
thousands of acres would have burned, whether or not we had 
another $40 million of firefighting capability on an annual 
basis.
    As a San Dieagan, I am keenly aware that when a home 
catches fire in San Diego County, or any of the other ordinary 
and routine emergencies that fire departments handle, we handle 
them extremely well. We are right-sized for those kinds of 
events.
    When you have 80 mile-an-hour winds, 90- or 100-degree 
temperatures, and you have, not one, but sometimes dozens of 
fires catching, either through man's efforts, or through 
natural efforts at one time, is when we clearly do not have the 
resources.
    Hopefully today, as we explore resources that expand far 
beyond those that you would routinely have sitting there in 
case a cat gets caught in a tree, euphemistically speaking, we 
begin to realize that C-130J's, DC-10's, helicopters are very 
expensive, but they are force multipliers. We need to have a 
plan throughout the West, to make sure that we spend the money 
wisely, to give us that surge capability, and if at all 
possible, find ways to have those resources properly used for 
other activities during the period in which we are not in a 
fire.
    Much has been said in San Diego County about the conflict 
between Marine aircraft that were available and the inability 
to utilize them in a timely fashion. I hope today we can put to 
rest the fact that this was a 99 percent perfectly fought fire, 
and a 100 percent textbook-compliant fire. No rules were 
broken. In fact, the availability of those helicopters and the 
scrambling to make those helicopters available, was, in fact, a 
new page in firefighting in San Diego County.
    I hope all of us will remember that we did not expect these 
assets to be available. When they were made available through 
the efforts of both the Marine commander and Cal Fire, we were 
able to put them to work in a couple of days.
    That doesn't mean we wouldn't like to anticipate those kind 
of opportunistic resources in the future, so that they can be 
put to work faster, but I don't believe that this hearing 
should dwell on a delay of a day or two in what was in fact a 
small portion of the resources that ultimately fought this 
fire, but, rather, look at the best way for the Federal 
Government to cooperate with State and local resources, to 
bring to bear the kind of effective firefighting, whether it 
occurs just in San Diego or in 10 spots throughout the West on 
the same day.
    Mr. Chairman, I appreciate, once again, our friendship. I 
appreciate of course that you are my brother's Congressman, and 
he never lets me forget that. He does vote for you.
    Mr. Kucinich. That is why I am here. [Laughter.]
    Mr. Issa. Every vote counts. But I appreciate you giving us 
an opportunity to explore this more fully. Nothing could be 
more important to the people in the West, than that we get this 
right on a Federal, State and local level, and I thank you and 
yield back.
    Mr. Kucinich. Thank you very much, Congressman Issa.
    The Chair recognizes another distinguished member of our 
subcommittee, if he wishes to make a statement.
    Congressman Bilbray and I have similar experience in local 
government as well as on a Federal level, and I think that 
having that experience on both levels is very useful to looking 
at local concerns and seeing where the Federal Government might 
be able to be of more assistance.
    So Congressman Bilbray, thank you very much for your 
presence here, attendance this morning, and we look forward to 
your comments.
    Mr. Bilbray. Thank you very much, Mr. Chairman. I always 
have to sort of chuckle, realize, was it 1978 that you and I, 
and one other ``young Turk'' mayor was----
    Mr. Issa Are you Turkish?
    Mr. Bilbray. We were young mayors then. Now we are just 
worn out Congressmen. [Laughter.]
    Mr. Kucinich. I don't want to say speak for yourself but--
[laughter.]
    Mr. Issa. He is just ``hitting his stride.``
    Mr. Bilbray. You know, let me just say that I think that 
Congressman Issa said it very well. Frankly, I come from a 
background, and like you said, Mr. Chairman, of the local 
government level, and there are too many of us in Washington 
that sit back and have never really had to have our ``hand on 
the helm,'' and don't realize the huge gap between the 
theoretical approach, the way things ought to work, and how 
they actually work out.
    And I see this hearing as being a debriefing on what, on 
its face, kind of really jumps out, that it was a success, but 
with any success there are always ways we can learn and do it 
better.
    I think that one of the big advantages that I would like to 
have this hearing do is take the message back to Washington 
with the Chair, that there are some real things to learn, both 
problems and successes here, that the rest of America ought to 
learn.
    A good example is the fact that this county, under the 
State system, has the advantage of having a unified disaster 
response structure, where fire chiefs, police chiefs, mayors, 
county supervisors, are all part of the team, and so they are 
used to communicating when there isn't a crisis, so that it 
works a little better when there is.
    We still have to improve on that, and I think that is one 
of those things of coordinating the State and Federal agency 
into that local team, that has shown how well it can work in 
the past.
    I think the Reverse 911 is one that the rest of the country 
ought to be really looking more seriously at. I talk to people 
about, in the Midwest, about how did this happen? how were you 
able to basically evacuate the population of New Orleans? And 
using technology, learning from the Cedar fire, and applying 
it, and building on what we learn there, is something that the 
rest of the country ought to look at. I do worry about the 
misconceptions that go over there.
    A lot of these problems are caused by the interface between 
wildlands and urban development. What I worry about is that 
there are gross assumptions being made there, that the only 
place you have problems is where homes have been built, back in 
the back country.
    Well, first of all, Julian has been there for a 100 years. 
It is probably one of the most threatened wildlands. At the 
same time, San Diego County, Mr. Chairman, the county and the 
cities have done something that I think the rest of the country 
would love to have done more of, and that is actually bring its 
wild lands into its urban interface.
    In my district, the greatest threat was those open space 
areas that we have set aside and preserved for habitat, and for 
open space recreational activity, end up being a threat during 
this wildlands, that it literally can go right into 
neighborhoods that have been there for a 100 years, and the 
ability to--these canyons, these open habitat areas then become 
a tinderbox for these threats.
    So these are obviously challenges that we have, and 
sometimes we are victims of our own success. I think that one 
of the things that we talked about with Mr. Markey's committee, 
as we will talk about greenhouse, the wildfires' impact on 
greenhouse gases, is that every study shows that controlled 
burns can be better for the environment, overwhelmingly, if we 
can be proactive about it, and I think there is a challenge 
there, as Congressman Issa said, at Congress recognizing that 
there is a place for the Federal Government to be proactive, 
and not only allowing, but encouraging the kind of activity 
that, traditionally, we have blocked and had obstructions in.
    I mean, our system basically allows a Federal bureaucrat to 
hold everything in abeyance, for years, just because you have 
to get his signature or her signature. I think now the burden 
of proof needs to be pushed forward, that we want our agents in 
Fish and Wildlife to sit there and say what can we do to 
prevent these problems, so we can save habitat from major 
catastrophes such as a wildfire.
    And let me just say that anybody that looks at the 
statistics on what has happened--Ron, how long ago was Cedar? 
Four years. We are talking about conditions, Mr. Chairman, that 
were twice as severe as 4 years ago, and we have kept the 
damage down, almost to where it was equal, that the conditions 
were absolutely horrendous, but because of the things we have 
learned, and built on from the past, we were able to minimize 
the impact.
    At the same time, with that success pointed out, we need to 
recognize that we need to do the same thing that we did 4 years 
ago, and that is reevaluate, relearn and go back and say, What 
can we do better? How can we improve it, so the next time this 
comes down, we can again have it again, down the line, I think 
that is the success here, and so, you know, as a former 
chairman of the local disaster council, I am very excited to be 
here, to be able to see how we have built from our successes, 
where the glitches were, where there were failures in the 
system, and build a stronger system for the next fire that 
comes along, that will be able to protect the people of San 
Diego County. And I yield back, Mr. Chair.
    Mr. Kucinich. Thank you very much, Congressman Bilbray.
    As I mentioned earlier, without objection, the Chair and 
ranking member had the time to make the opening statements, and 
that Members and witnesses may have 5 legislative days to 
submit a written statement or extraneous materials for the 
record.
    Now I also want to ask those of you--I am mindful of the 
fact that we have a room of emergency responders, but if you 
have a cell phone, if you could keep it on a vibrate function, 
it will be easier to conduct this hearing.
    So I think that is the only statements we are going to have 
from Members at this point.
    If there are no additional opening statements, the 
subcommittee is going to receive testimony from the witnesses 
before us today.
    I am going to introduce our first panel.
    Tony Morris. Mr. Morris is a freelance journalist and 
founder of the Wildfire Research Network. The Wildfire Research 
Network's goal is to improve wildfire suppression capability 
and to provide wildfire research findings to the public and 
government.
    Mr. Morris will represent the WRN, and recently served on 
Governor Schwarzenegger's blue ribbon panel on fire protection. 
This panel helped secure the purchase of new firefighting 
supertankers and other technologies to help the State suppress 
fires more effectively.
    Mr. Jeffrey Bowman served as chief of the San Diego Fire 
Department from 2002 to 2006. Mr. Bowman has been in the 
firefighting profession since 1973, and was chief of the 
Anaheim Fire Department until 2002.
    Ms. Tracy Jarman is chief of the San Diego Fire-Rescue 
Department. Chief Jarman has worked for the San Diego Fire 
Department since 1984.
    Mr. Michael Freeman. Mr. Michael Freeman is the fire chief 
for the Los Angeles County Fire Department. As fire chief for 
the last 18 years, he has led the fire department through many 
large-scale emergencies, including the 1993 Malibu fire and the 
2003 fires.
    Chief Freeman will also be reading the testimony of who 
could not be with us today but whose testimony we will enter 
into the record.
    Mr. Chip Prather is the fire chief of the Orange County 
Fire Authority. In 2003, Mr. Prather served on California's 
blue ribbon fire commission.
    Mr. Ruben Grijalva is the director of the California 
Department of Forestry and Fire Protection, and is the State 
fire marshall for California.
    Mr. Ron Roberts is chairman of the San Diego Board of 
Supervisors and is currently serving his fourth term in this 
position. Mr. Roberts served on the San Diego City Council for 
7 years prior to becoming a supervisor.
    So I want to thank each and every one of the witnesses for 
appearing before this subcommittee today.
    To the witnesses, it is the policy of the Committee on 
Oversight and Government Reform to swear in all witnesses 
before they testify. I would ask that if all of you would 
please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you. Let the record reflect that the 
witnesses answered in the affirmative.
    Now I ask each of the witnesses to give a brief summary of 
your testimony and to keep this summary under 5 minutes in 
duration.
    I want you to bear in mind that your complete written 
statement will be included in the hearing record.
    So Mr. Morris, let's begin with you and then we'll proceed 
down the line. Thanks again for being here and you may 
continue.

  STATEMENTS OF TONY MORRIS, FOUNDER AND RESEARCHER, WILDLIFE 
 RESEARCH NETWORK; JEFFREY BOWMAN, FORMER FIRE CHIEF, CITY OF 
  SAN DIEGO FIRE-RESCUE DEPARTMENT; TRACY JARMAN, FIRE CHIEF, 
 CITY OF SAN DIEGO FIRE-RESCUE DEPARTMENT; P. MICHAEL FREEMAN, 
 FIRE CHIEF, LOS ANGELES COUNTY FIRE DEPARTMENT; CHIP PRATHER, 
   FIRE CHIEF, ORANGE COUNTY FIRE AUTHORITY; RUBEN GRIJALVA, 
 DIRECTOR, DEPARTMENT OF FORESTRY AND FIRE PROTECTION; AND RON 
  ROBERTS, CHAIRMAN, BOARD OF SUPERVISORS, COUNTY OF SAN DIEGO

                    STATEMENT OF TONY MORRIS

    Mr. Morris. Chairman Kucinich, ranking member, and members 
of the subcommittee, thank you for the opportunity to testify 
before you today. Again, I am Tony Morris of Wildlife Research 
Network, WRN, a Los Angeles-based citizen nonprofit public 
safety research organization, created 7 years ago to improve 
wildfire suppression capability throughout California and the 
United States.
    Current statistics show we have lost more than 8,500 homes 
and structures in California wildfires in the first 7 decades 
of this decade. This is significantly more than the 6,500 lost 
in the preceding 30 years.
    Trends like these cannot be allowed to continue. WRN has 
been conducting a serious search to answer the perennial 
questions. No. 1, why does this happen? and two, what can be 
done about it?
    During the California Governor's blue ribbon fire 
commission hearings, following the 2003 Southern California 
wildfire siege, experienced firefighters said they were hearing 
essentially the same comments and recommendations they had 
heard 10 and 20 years ago in similar hearings.
    WRN now, sadly, must report the 58 recommendations of the 
2003 blue ribbon commission have met the same fate--very little 
progress. However, acknowledging the 19 pursued by the U.S. 
Forest Service. These observations indicate the wildfire 
fighting systems have not been working well for over 30 years. 
No really significant changes are being made.
    When the wind blows hard, lots of houses burn down. We 
believe firefighters have been doing their best with what they 
have, but when strong winds come, the system breaks down. The 
issues are not with the firefighters but with the equipment and 
other resources provided to them.
    WRN addresses these in three categories. Technical, 
financial and administrative. Technical challenges are, No. 1, 
fires are not attacked soon enough with effective resources. 
Two, current air tankers do not carry enough suppressant to 
attack the heads of big fires.
    Three, airborne firefighting assets do not fight fires at 
night. Four, current firefighting systems have limited 
effectiveness and high winds. And five, the fire services do 
not have the viable research and development program to resolve 
the preceding four technical challenges.
    None of these technical challenges will be resolved, 
however, until someone is willing to spend the money. This 
leads to the financial challenges. Wildfire fighting costs have 
been cyclical, widely spaced high-cost years with many modest 
cost years in between. This has led to budgeting concepts of 
general funds and emergency funds.
    General funds cover moderate year expenses, and emergency 
funds are only tapped or spike high-cost years. The general 
funds do not include any significant funding for modernization 
or resolution of spike year problems.
    The spending profile for major big spike fires starts out 
low because all fires start out small, and only immediately 
available adjacent initial attack forces are involved. But as 
the fire overwhelms the ability of the initial attack forces, 
fire size rapidly expands and much larger forces are called 
from ever-more-distant assets. Suppression costs build 
accordingly, and generally exceed general funding available.
    If adequate initial attack capability is provided, the 
large emergency fund requirements do not materialize.
    The moral is more money must be made available to 
significantly improve the effectiveness of the initial attacks, 
and the missing research and development programs to identify 
the best way to spend this money.
    This is the only way to reduce spike emergency costs. These 
financial changes will not be implemented without support from 
administrative arms of the financing governments. Local and 
State governments have limited taxing ability to raise general 
fund allocations. Many changes needed to improve initial attack 
capabilities involve complex and/or large capacity new 
equipment in significant numbers, that generally require 
technical expertise beyond that normally found in the local 
fire services.
    Existing Federal fire services are in no better position to 
deal with these issues than local agencies, because 
organizationally, they also have limited geographical authority 
and exist as subsets of three cabinet-level agencies, with 
prime responsibilities other than wildfire fighting.
    WRN believe a new cabinet-level agency with prime 
responsibility for resolving the technical and financial 
challenges of the wildfire fighting services should be created 
to adequately collect, organize and present their needs with a 
single voice and provide information for effective oversight 
and accountability.
    I would like to ask the chairman's permission to invite Mr. 
Bob Cavage, he is the president of WNR, he is an expert in 
aeronautical engineering, and he is present to answer any 
questions you might have on the technical side. Mr. Cavage is 
in the audience. If that is possible.
    Mr. Kucinich. Mr. Morris, and to the gentleman, that will 
be fine if we need to involve him in the Q&A, we will ask him 
to come forward and we will swear him in.
    Mr. Morris. OK.
    Mr. Kucinich. So thank you for your attendance as well.
    [The prepared statement of Mr. Morris follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Kucinich. Mr. Bowman, you may proceed.

                  STATEMENT OF JEFFREY BOWMAN

    Mr. Bowman. Thank you, sir. Unfortunately, I agree with 
most of what Mr. Morris has had to say. I have sat through so 
many of these after-action processes where a lot of 
verbalization takes place, and within 6 months, very little to 
any change is made.
    I certainly believe, and I will address comments this 
morning at the Federal, State and local level, but I certainly 
believe firefighting and its responsibilities truly are a local 
government responsibility. The State plays a role in that as 
does the Federal Government, but it predominantly is, and 
should be, a local government responsibility.
    Some local governments perform that responsibility better 
than others. As the former fire chief in San Diego, I will talk 
briefly about my beliefs of the local government responsibility 
in just a moment. Before I do that, I would like to say a thank 
you on behalf of the citizens of California to the Federal 
Government for the assistance that you have provided to this 
region.
    The monetary input that has gone into brush and fuel 
managements and vegetation policies in California, have gone a 
long way to help toward the fire prevention side of what has 
happened here, in California, in the last 10 years, 
specifically since the Cedar fires.
    I would also say that many of the nice changes that you 
have mentioned this morning, and the technology improvements 
that have happened in Southern California since the Cedar fire, 
were actually funded by the Federal Government. They didn't 
come from local funding.
    You mentioned the Reverse 911. Yes, it worked well. That 
was funded by you, thank you for that, through Homeland 
Security grant funding.
    My comment, then is that the Federal Government I believe 
is doing a much better job of helping out local and State 
resources when it comes to this important public safety 
subject.
    On the State level, it was mentioned by Mr. Morris, I sat 
in my kitchen, 4 years ago, when Governor Davis called me and 
asked me what we could do about the wildfire impacts in 
California, and several of the people on this panel and I had 
already spoken about what to do next, and out of that 
conversation came the blue ribbon commission, on which I sat, 
as did some others here in the room today.
    My point is that we went through months of researching what 
took place and what needed to change, and some of the most 
basic recommendations have yet to be done.
    One I will mention is the State of California has the 
Office of Emergency Services where they provide fire apparatus 
to local governments in times of emergency. The recommendation 
out of the blue ribbon commission was to purchase 150 fire 
engines. To date, since 2003, 19 have been purchased, not one 
has been received by the State government. I believe that is a 
focus that needs to have a tremendous amount of effort put on, 
so that we don't come together at the end of the next wildfire 
and have this same conversation again.
    Military asset and aircraft were talked about, Congressman. 
I just have to tell you that another recommendation out of the 
blue ribbon commission was that two State agencies and one 
Federal agency would come together every year, no later than 
July, with a written statement of how we, as the fire service, 
were going to utilize local and Federal military assets to help 
fight wildfires.
    And if the recommendation had simply been followed, it is 
my opinion that this wildfire siege would have happened much 
more effectively, without any of the confusion or the red tape.
    I just hope that between now and next year, that 
recommendation is enacted, so that by July 2008 a written 
report of status takes place. At the local level, Congressman, 
I understand your concern about funding.
    Too many people misunderstand that $40 million. That wasn't 
to fight a wildfire. That was to manage, day to day, in San 
Diego, and I will let my esteemed colleague to my left remind 
you that is something that needs to be focused on here, 
locally, at San Diego.
    Mr. Kucinich. Thank you very much.
    Chief.

                   STATEMENT OF TRACY JARMAN

    Chief Jarman. Good morning. I appreciate the opportunity to 
participate in this hearing this morning.
    I am frustrated, that every time there is a major firestorm 
that comes through the San Diego region, San Diego city finds 
itself alone, on our own, for the first 24 to 48 hours to fight 
the firestorm.
    Let's be clear. These fires start out in East County and 
blow into the city of San Diego. This was the case in 2003 at 
the Cedar fire and the case again in 2007 Witch Creek fire. I 
need to set the record straight. Well in advance of both the 
Cedar and Witch fires reaching the city limits, the city fire 
and rescue department had requested additional firefighting 
resource assistance. In both cases, we were told there were 
none available.
    At this last fire, I requested a 100 additional engines, 
600 additional firefighters, including hand crews, and we were 
told none were available.
    However, at the same time, we are expected to often send 
out engine strike teams to assist other fire agency requests 
within the county of San Diego. It is unfortunate, but looking 
to the future, I think we will need to consider the commitment 
of the firefighting resources to other areas.
    I don't say this lightly, but you must understand, my 
primary responsibility is to provide the highest level of fire 
protection services possible for the citizens and visitors to 
the city of San Diego. That being said, and based on recent 
history, I may need every available city firefighting resource 
here, within the city, to fulfill that responsibility.
    You need to be aware that historically, the county of San 
Diego has, and still lacks, the firefighting resources 
necessary to protect its residents and visitors during 
significant firestorms.
    In a previous hearing, the blame or burden seemed to be 
placed primarily on the city of San Diego to solve this 
regional issue. Specifically, the immediate availability of 
additional fire suppression resources. This is a much larger 
regional issue. Solving this issue is the responsibility of the 
county, the State, and potentially, the Federal Government.
    Sure, I can build 22 more fire stations within the city 
that will help us on our day to day responses, but those fire 
stations and personnel are not going to make a substantial 
difference when a Santa Ana firestorm blows into our city. 
Twenty-two additional fires stations would provide five 
additional strike teams, not nearly the firefighting assistance 
I need when I am requesting a 100 additional engines, like I 
did during the Witch Creek fire.
    During the recent Malibu fire, dubbed the Corral fire, I 
was told that there were 45 strike teams available to suppress 
this 4,000 acre blaze. I realized I had a total of 10 San Diego 
fire and rescue strike teams in Rancho Bernardo for a 9,000 
acre fire. This was more than twice the size of the Corral 
fire, with a quarter of the resources to fight it.
    I am exceptionally proud of the job our firefighters did in 
saving nearly 6,000 homes. It is also important to note that 
there were neither lives lost nor any major injuries to 
firefighters or citizens within the city of San Diego.
    I need to reiterate that we, the San Diego Fire and Rescue 
Department, were there in force when the fires burned into the 
San Pasqual Valley and Rancho Bernardo communities. Our 
firefighters fought the fire aggressively and never gave up.
    At the peak of the fire, we deployed 480 San Diego city 
firefighters. That was more than half of my department, was on 
the fire line. The community knows this as do our firefighters.
    We welcome being part of the regional solution. Although we 
are by far the largest firefighting in the county, the city of 
San Diego Fire and Rescue Department should, by no means, be 
considered a silver bullet with a responsibility to provide the 
majority of the additional firefighting services needed in this 
county.
    I acknowledge the greatly improved cooperation between 
Federal, State and local fire agencies. This is a vast 
improvement over our experience during the 2003 Cedar fire but 
we still have a long way to go. As a city, we are not going to 
get there alone, nor should there be an expectation that the 
city should shoulder the entire burden. It is not fair to the 
city or its citizens.
    Other fire agencies and local government jurisdictions need 
to step up and share the responsibility of helping resolve the 
regional issues.
    I want to thank you for this opportunity. I recognize that 
County Board of Supervisor Ron Roberts and Bill Horn have 
stepped forward with a proposal and we appreciate an 
opportunity to be a part of that ongoing solution. So thank 
you.
    [The prepared statement of Ms. Jarman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Chief. I want you to 
know that, as all the witnesses should be informed, that your 
entire statement will be put in the record of this hearing, as, 
without objection, will be the testimony of Los Angeles County 
Supervisor Zev Yaroslavsky.
    [The prepared statement of Mr. Yaroslavsky follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. At this time we will hear from Chief Freeman. 
Chief, you may proceed.

                STATEMENT OF P. MICHAEL FREEMAN

    Chief Freeman. Mr. Chairman, members of the committee, 
thank you for being here. I represent the Los Angeles County 
Fire Department which provides fire suppression and life safety 
services to a 2,296 square mile area within the 4,400 square 
mile county of Los Angeles. More than 4 million residents and 
58 cities, and all unincorporated areas are protected.
    Each year, we provide fire code enforcement, planning for 
high-risk wild land areas, and respond to more than 900 
reported brush fires.
    During the Southern California firestorms of October 2007, 
we coordinated and sustained wild land firefighting operations, 
combatting four large complex firestorms, some occurring 
concurrently, and also to deal with several other fires within 
our county. All of these were fanned by gusty Santa Ana winds.
    As soon as upper hand, in even a small way, was gained, 
additional personnel from Los Angeles County, 45 engine 
companies, dozers, crews, helicopters, were sent to other areas 
still in peril.
    In total, 35 homes were lost during October in Los Angeles 
County. What we believe made a big difference for us was first, 
preplanning, equipment purchases and contracts which gave us 
many resources needed to mount considerable air and ground 
attacks. Our department focus on preplanning enabled us to 
better meet the needs of these simultaneous incidents.
    At the core of predeployment planning is focus on 
operational readiness, so that firefighters have the right 
training and equipment to fight these fires when they do occur.
    Another important component is the staffing of three highly 
trained and organized incident management teams, ready in the 
event of a major incident.
    Daily, we monitor local weather conditions, initiate 
increased fire suppression staffing and equipment levels, 
including additional helicopters, prepositioning fire engine 
companies prior to the arrival of predicted Santa Ana winds.
    When the California mutual aid system is operated, it is 
obviously essential, and it is critically so, to our ability to 
respond to and contend with large-scale wild land fires.
    Mutual aid, however, takes time to activate and during fire 
sieges in which multiple incidents are underway, waiting for 
resources to come from long distances, or being released from 
one incident and assigned to another can be challenging.
    During the height of the battle in October, 127 of 232 
total fire engines in Los Angeles County, were engaged in 
firefighting at these major incidents. Over 1,800 firefighters 
from Los Angeles County worked around the clock on these 
wildfires. Nine firefighting helicopters, including three 
Sikorsky Fire Hawks, which belonged to the county, with 1,000 
gallon water-dropping capacity, flew day and night.
    Three contract aircraft, two 1,600-gallon capacity 
SuperScooper airplanes, and a 2,200-gallon capacity Helitanker 
helicopter aided our firefighters.
    Firefighting staffing also included 32 15-member fire hand 
crews, 8 bulldozers, 13 dozer tenders, 37 fire patrols, and 
staffing of 80 reserve fire engines.
    Despite all of our preplanning and predeployment measures, 
the mutual aid system still played a major role in our ability 
to respond and contain these fires, saving hundreds of homes 
each time. During these wind-driven events, no fire department 
can stand on its own.
    Our philosophy is that a strong mutual aid system does not 
relieve a locality of its responsibility to assess 
jurisdictional threats and prepare for them.
    We have invested in more resources of our own, whether 
through direct acquisition or creation of seasonal lease 
agreements, so that additional resources are readily available 
to attack wildfires quickly, and keep them small, if possible.
    We recognize this following the devastating 1993 firestorms 
in Malibu and Altadena when hundreds of homes were taken. We 
have four recommendations. We submit those in our testimony. We 
emphasize, once again, that the State work to increase the 
surge capacity, that is, additional engine companies through 
the acquisition of more fire engines.
    These companies could be staffed by local fire departments.
    A Federal-State partnership to establish and identify 
funding for predeployment costs and mutual aid response.
    A Federal fleet of air assets used by the Federal 
Government needs to be upgraded.
    Federal-State sponsorship to fast track applied technology 
to create a real-time GPS-based mapping system for incident 
commanders to use in managing these major wildfires.
    Again, thank you for your time and being here with us this 
morning.
    [The prepared statement of Mr. Freeman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Chief, and I know that 
everyone's time is very valuable, and we are going to keep 
moving through the hearing. Please let Mr. Yaroslavsky know 
that we appreciate him submitting that written testimony and 
that testimony is going to be in the record of this hearing as 
though he were here to present it.
    Chief Prather.

                   STATEMENT OF CHIP PRATHER

    Chief Prather. Mr. Chairman, members of the committee, 
thank you for this opportunity and for your leadership on this 
very important and very real issue.
    I too have submitted a comprehensive statement addressing 
the scope of your questions that were provided in the 
invitation.
    The key points in that document, which do acknowledge that 
the outcome of this conflagration is better than that which 
resulted from the 2003 firestorms, are centered on two things.
    The assumption that the number of deaths and burned-out 
neighborhoods at this time, no matter how much better than the 
2003 conflagration, is not acceptable for our community.
    And second, that the path to achieving a better outcome, 
while hard to bring about, while hard to bring about, is pretty 
easy to identify and understand.
    Specifically, achieving a better outcome requires risk 
based land management. In other words, we must deal with the 
fuel-loading in the areas adjacent to the wildland urban 
interface, and we must have zoning requirements that 
acknowledge a community fire risk, along with a set of building 
and fire codes that are truth-tested in a wildland-urban 
interface.
    In California, a new set of building and fire codes will 
become effective over the next 6 months, which do just that for 
new construction.
    However, as Congressman Bilbray pointed out, the larger 
risk is those preexisting nonconforming structures in the 
hundreds, if not thousands of neighborhoods, that were built 
before the modern codes were enacted, or the many communities 
that adopted local code amendments to address the historical 
fire risk in those neighborhoods came about.
    The second part of the solution in my opinion, is to have 
an engaged community that is motivated to take the necessary 
steps to harden our homes and create defensible space, and for 
us in the fire service to have the tools available to enforce 
that compliance when those residents are not motivated to do 
so.
    And last, as you have heard, and as you have also stated, 
there must be a robust initial attack firefighting force on the 
ground and in the air to keep the fire small.
    And when those conflagrations that will continue to occur 
in Southern California do happen, there must be the surge 
capacity of local, State and Federal assets, to quickly provide 
additional air and ground assets to stand between the people 
who are at risk and the advancing fire.
    The brush fire risk in Orange County, much like that of the 
jurisdictions which my colleagues protect, happened in minutes, 
not hours, not days. I don't know what is fact or what is 
fiction when it comes to the resource issues of the air and 
ground asset problems with this most recent conflagration. But 
I do know this.
    If we expect to change the future, we must have additional 
air and ground assets quicker, and there must be more of them, 
and as I say, they absolutely must address the prevention and 
compliance issues at the same time.
    Bringing about those changes will require strong leadership 
at the highest levels, accountability to ensure steady 
progress, and the money necessary to support that effort.
    Mr. Chairman, it is my hope that this committee will 
provide some of that leadership and I thank you for taking what 
I hope is a first step in bringing about a different future. 
Thank you.
    [The prepared statement of Mr. Prather follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Chief, thank you very much. I have had a 
chance to review your testimony and it is quite comprehensive, 
and I think that it will be very helpful to the work of this 
committee. Thank you.
    The Chair recognizes Mr. Ruben Grijalva. Welcome, sir.

                  STATEMENT OF RUBEN GRIJALVA

    Mr. Grijalva. Thank you. Good morning, Chairman Kucinich, 
Congressman Issa, Congressman Bilbray. Thank you for inviting 
me to speak with you today, and as the chief of Cal Fire, let 
me begin by saying that saving lives is our first priority in 
the fire service. All firefighters know that.
    Emergency disaster response is a highly coordinated skill 
that takes years of experience, cooperation among many 
entities, and millions of dollars in place. It works better in 
California than anywhere else in the world.
    During the October firestorm, the actions performed by 
emergency responders resulted in dramatic improvements over the 
2003 fires. The State was prepared like never before. Cal Fire, 
the U.S. Forest Service, and local government, predeployed 
additional engines, aircraft, and personnel to Southern 
California in advance of the fires because we knew the 
potential risk from the weather conditions that were presented.
    This level of predeployment did not occur at this same 
level in 2003. Fire/weather personnel predicted the Santa Ana 
winds to be a moderate event. However, the weather began the 
perfect storm of high temperatures, low humidity, high wind 
speeds, and at times reaching hurricane speeds in some areas.
    During the October fires, we mobilized more and different 
equipment faster than we did in 2003. In fact, in a 2-day 
timeframe, we mobilized more than we did in a 6-day timeframe 
in the 2003 siege.
    There were over 15,000 firefighters on the ground, and in 
the air, fighting fires in Southern California.
    Through various mutual aid agreements, we received 
assistance from a number of States, probably over 30 States, 
ultimately. We also received assistance from every military 
branch, on the ground with bulldozer assets, in the air with 
helicopters, and also in gathering real-time intelligence 
information in the middle of a firestorm.
    In total, there was approximately 1,145 different fire 
agencies fighting these wildfires.
    Let me mention, that in addition to the 23 large fires that 
occurred in six counties in Southern California, an additional 
251 fires were extinguished by the fire service personnel, 
without damage, between October 20th and the 25th.
    No one can deny that the collective response and 
performance of the emergency personnel in October was anything 
less than extraordinary.
    They managed the most orderly mass evacuation in the 
State's history. Authorities estimate more than a half a 
million people were evacuated from the path of the fires. Lives 
and homes were saved by emergency personnel who risked their 
own lives over and over again. Despite worse conditions faced 
this year, the 2003 fires resulted in hundreds of more homes 
destroyed and more lives lost than in 2007.
    Fires are won and fought on the ground. Aircraft is 
certainly an important tool, but planes and helicopters are not 
effective without firefighters, engines, water tenders, 
bulldozers, and assisted by an evacuation plan and properly 
managed shelter.
    I can tell you, in particular, on the Witch fire, that our 
air tankers dropped on that fire, within 2 minutes of that 
fire's origination, again in 5 minutes, and then again 7 
minutes later. That is three air tankers dropping 1,200 gallons 
of retardant each. Without support from resources on the 
ground, the fires blew right past it and was not contained by 
air attack.
    There's been a lot of focus on the air coverage, the use of 
and limited use of, for these fires. But focusing solely on the 
asset minimizes the primary role of firefighters on the ground 
and their successful efforts.
    I will submit the rest of my testimony for the record.
    [The prepared statement of Mr. Grijalva follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Mr. Grijalva. We are now 
going to hear from Chairman Roberts.
    Mr. Roberts.

                    STATEMENT OF RON ROBERTS

    Mr. Roberts. Thank you, Mr. Chairman, and let me officially 
thank you for being here today. And I also want to thank both 
Congressman Issa and Congressman Bilbray. You should know that 
unlike many elected officials who have been here, these two 
Congressmen were here during the fire, they were working hard, 
not when the cameras were rolling, but off camera, to 
understand what was going on, and to help to contribute to 
solutions, and they, along with Congressman Hunter, I just want 
to acknowledge and to thank them.
    We have just experienced some of the worst firestorms in 
California history, and I refer to this as a ``perfect 
firestorm'' in that the high winds, low humidity and dry brush, 
all contributed to the disastrous mixture. It has already been 
noted how many homes. We lost over, approximately 1,700 homes. 
The majority of these were in the unincorporated areas of the 
county. They weren't in cities. They were in the unincorporated 
areas, and tragically, there were 10 people who lost their 
lives.
    Today, we are moving forward, the debris is being removed, 
and we are seeking to get back to a situation of normalcy, 
whatever that might be.
    These fires, just like the fires that swept through here in 
2003, will teach us a great deal. In fact, they already have. 
There are some things, however, that we already know. We know, 
for example, that the evacuation of more than a half a million 
people in San Diego County, while not perfect, worked very 
smoothly.
    And we also know that the timely deployment and use of 
military aircraft did not, for a variety of reasons.
    Since 2003, as you noted, we have invested nearly $130 
million to enhance our ability to combat, prepare for, and 
respond to wildfires. In addition to a number of things that we 
have done to remove diseased or dying trees, over 400,000, the 
county did implement a Reverse 911 system, and just before the 
firefighters were put in place, a much more technologically 
advanced mass notification system.
    That system is capable of notifying not just on landlines, 
but using cell phones and e-mail systems to notify people that 
they need to consider evacuation. More than consider. Sometimes 
it is mandatory.
    The county of San Diego also holds a strong belief that 
land use and zoning ordinances are extremely important in 
minimizing the loss of life and property. Our codes and our 
ordinances are among the most advanced in this State.
    But you need to also understand the local geography. It has 
a canyon system that runs right into the heart of this entire 
county, in fact, very close-in to downtown San Diego.
    While evacuations are a preferred method of protecting 
lives, we have also developed a shelter-in-place program. In 
fact some of our newer communities have a shelter in place, and 
clearly designed evacuation routes. And by the way, the five 
new communities that have shelter in place, there were no homes 
lost in those areas. So perhaps this is something that needs to 
be looked at, in detail.
    We also require defensible spaces around both our large and 
our small subdivisions, and in some instances, these defensible 
spaces exceed 200 feet in width.
    It is, however, difficult, if not impossible, to go back 
and retrofit our older communities. But in addition to the 
zoning ordinances, our building codes are among the strictest 
in this State, and I understand there will be new building 
codes soon required by the State, but we require, first of all, 
noncombustible or fire-resistant exterior materials, dual-
glazed windows and fire sprinklers in all new construction.
    These are just a few of the things that have been done.
    OK. I will do that. Can I make----
    Mr. Kucinich. If you would go ahead and wrap it up.
    Mr. Roberts. Yes. I will. I think there are some things you 
need to be aware of and I will just mention a few. There are 
things that maybe need to be considered by the Federal 
Government.
    The Bureau of Land Management, for instance, only operates 
its fire departments here five, not 7 days a week, and a cost-
cutting move has reduced the number of days that most stations 
are open. You can be of help to us, and I think both the 
Congressmen are working on systems that would allow us to fight 
fires the way that a modern war is being fought, and that is 
usually, and especially the systems that are available, that 
could help us with earlier detection of fires, and then the 
surveillance and the information that we need in the management 
of that firefighting process.
    There were systems that were available to us late in this 
fire, that really were of no consequence in helping us where 
the fire was after most of the damage had been done.
    We need to be able to bring those things on line earlier. 
These are Federal assets and I know that both of the 
Congressmen are very familiar with Global Hawk and other 
things. There is no reason why these are used in hurricanes but 
not in fires. So we would like to see that perhaps in 
reconsideration of the way some of the Federal equipment is 
being used, and also looking ahead to things that we will need 
to do with Federal assistance.
    [The prepared statement of Mr. Roberts follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Mr. Roberts. We are now 
going to move to questions of the witnesses. We are going to 
move to questions of the witnesses. I would ask the witnesses 
to engage in this exchange and let's try to get right to the 
point.
    I want to start with Mr. Bowman. You spoke of a blue ribbon 
commission and past recommendations which have not been 
followed. Does any recommendation come to mind, that you think 
would be helpful if it was followed at this point?
    Mr. Bowman. Do I need a microphone?
    Mr. Kucinich. I think it would be helpful if you had it.
    Mr. Bowman. Yes, sir. I mentioned two of them. The purchase 
of the OES fire engines is probably the least expensive, most 
effective change that can happen, because those units, once 
they are purchased, are spread throughout the State in an area 
where you can have the surge capacity that was mentioned by 
some of the other speakers. They are not staffed until a 
wildfire or a disaster occurs.
    So you don't have the day to day staffing. You have 
immediate resources available to augment local government's 
response to these kinds of incidents.
    Mr. Kucinich. Thank you, Mr. Bowman.
    Chief Jarman, how often are you asked to assist cities 
surrounding San Diego, such as East County?
    Chief Jarman. Oh, we assist on a daily basis through the 
mutual aid system.
    Mr. Kucinich. And does providing that assistance strain 
your own resources?
    Chief Jarman. Well, the part that is mutual, we try to 
support each other. The surrounding cities oftentimes do help 
us, in return, if we are overtaxed. In a firestorm situation, 
typically, we go out and help the surrounding communities in 
order to prevent the fire from progressing, because eventually 
it ends up in the city of San Diego.
    Mr. Kucinich. So do you have any recommendations as far as 
easing the city of San Diego's burden as far as its resources?
    Chief Jarman. Well, I think our county is underresourced as 
a whole. I think the city of San Diego, for day to day 
operations, needs to build like 20 plus fire stations. But I 
believe the surrounding agencies also need to step up the 
amount of resources that are available in the county.
    Looking at our regional county fire department, with an 
adequate, sustainable funding source would benefit the citizens 
of San Diego. It would improve our efficiency. It would drop 
the boundaries and allow us to respond better and support all 
the region.
    Mr. Kucinich. Now you had mentioned you have a quarter of 
the resources to fight a fire that was significantly larger 
than the Corral fire. Whose responsibility is it to bolster the 
resources you have available?
    Chief Jarman. I believe it is on the local, State and 
county governments to ensure that there is enough resources to 
protect the citizens during--it is challenging. We talked about 
surge capacity. When a firestorm like that, with 50 additional 
reserve apparatus, all the agencies within San Diego County 
could staff the reserve apparatus. We have off-duty crews that 
are available.
    Mr. Kucinich. So would having a county fire department 
improve fire preparedness and response?
    Chief Jarman. Yes. I believe that a regional, a county fire 
department, with a adequate sustainable funding source, would 
improve emergency response.
    Mr. Kucinich. Thank you, Chief.
    Mr. Morris, Governor Schwarzenegger as well as Cal Fire 
contend, that even if they had sent a dozen more aircraft into 
Southern California during the first 24 hours of the wildfires, 
that would have been useless in light of the ferocity of the 
Santa Ana winds. Do you agree?
    Mr. Morris. Not necessarily. There are only certain--excuse 
me. Let me--could I please swear in Mr. Cavage? He's a 
technical expert, our planning expert.
    Mr. Kucinich. OK. Do you want to first state your name, 
please.
    Mr. Cavage. It is Robert Cavage.
    Mr. Kucinich. Can you spell that for the record.
    Mr. Cavage. C-a-v like in Victor, -a-g-e.
    Mr. Kucinich. OK. Raise your right hand.
    [Witness sworn.]
    Mr. Kucinich. OK. Let the record show that the witness has 
answered in the affirmative.
    I would ask staff if you would provide the gentleman with a 
chair.
    I am going to ask the question again for the record.
    Governor Schwarzenegger as well as Cal Fire contend that 
even if they had a dozen more aircraft sent to Southern 
California during the first 24 hours of wildfires, they would 
have been useless in light of the ferocity of the Santa Ana 
winds.
    What is your opinion on that, sir?
    Mr. Cavage. The whole issue is what was the wind speed at 
the time. If it is over 35 miles per hour, all of your air 
assets, except a few fixed wing, SuperScoopers, and some 
helicopters, everybody else gets sent home.
    So I don't care if you had 10 times as many airplanes that 
we have now. When the wind gets up to that speed, safety says 
you don't send them, you don't send them. Now that doesn't mean 
those aircraft cannot be used at other times. The fire isn't 
over 35 miles per hour all the time.
    So there is a period of time when it is true, the air 
forces were not available and they may be useful. But there is 
a buildup period and it depends on when the ignition occurs.
    Like in the Cedar fire, we had 12 hours notice before the 
winds hit the homes, and yet nothing happened because the 
airplanes couldn't fly at night.
    So there are technological changes that need to be made to 
make those aircraft effective as possible. The military has 
been doing this for decades. There is no reason why that 
technology can't be transferred to the civil fleet.
    Mr. Kucinich. So just to clarify before I turn the 
questioning over to my colleague, Mr. Issa, at what point, at 
what wind speed are you saying the aircraft is less effective?
    Mr. Cavage. The number that is typically used as a rule of 
thumb is 35 miles per hour. However, there are adjustments. 
Some aircraft, some helicopters----
    Mr. Kucinich. What about the Witch Creek fire? What was the 
wind speed there?
    Mr. Cavage. I am sorry. I don't know that. The people on 
the ground----
    Mr. Kucinich. Does anyone here know the answer to that 
question, what the wind speed was at the Witch Creek fire? 
Anyone?
    Mr. Grijalva, do you know what the----
    Mr. Cavage. It was 68?
    Mr. Grijalva. I think we're technically challenged on that.
    Mr. Kucinich. If you could just say, you know, I will 
repeat the answer.
    Mr. Grijalva. It varied from time to time. I actually have 
two pilots here with me that flew the Witch Fire, who can give 
you accurate information of what they saw while they were in 
the air. But they actually went up, came down, went up,. They 
were also looking at the wind changes throughout the fire, and, 
you know, they are here in the audience, if you want to swear 
them in.
    Mr. Kucinich. Sure.
    Mr. Grijalva. They actually flew the fire.
    Mr. Kucinich. Sure. I mean, without objection, if we could 
have another minute for my questioning on here.
    Mr. Bilbray. Mr. Chairman, I think the testimony was 
showing the maximums were up to 45 to 85, but, you know, that 
would be a fluctuation as the chief was saying.
    Mr. Kucinich. I just think it is important for us to 
establish this, you know, certain assertions are being made, 
and I just want to make sure the record is clear on this.
    OK. If the gentleman would just----
    Mr. Grijalva. Can I introduce them.
    Mr. Kucinich. And the gentlewoman--come forward.
    Mr. Grijalva. This is Billy Hoskins who is a----
    Mr. Kucinich. Mr. Hoskins.
    Mr. Grijalva. Bill Hoskins who is one of our air tanker 
pilots, and Lynn McGrew----
    Mr. Kucinich. So would you--I just want to get the names 
here. Mr.--is it Billy or William?
    Mr. Hoskins. Billy.
    Mr. Kucinich. Hoskins. H-o-s-k-i-n-s?
    Mr. Hoskins. That is correct.
    Mr. Kucinich. And?
    Ms. McGrew. Lynn McGrew. L-y-n-n M-c-G-r-e-w.
    Mr. Kucinich. And you are both pilots?
    Ms. McGrew. We are both based out of Ramona.
    Mr. Kucinich. Could you raise your right hand, both of you.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record show the witnesses answered in 
the affirmative.
    I just would like you to speak to the question of what the 
winds were at that time, and to speak to the question of the 
effectiveness of firefighting. At what point is it diminished 
from the air? At what wind speed?
    Mr. Hoskins. Yes, sir. I can't be specific about the wind 
speeds because it varied so greatly. But at the beginning of 
the Witch fire, two or three three pilots that initially 
attacked it--that's us--did exactly what Mr. Grijalva said. We 
worked on the fire. I think we had eight drops on it before it 
completely, you know, escaped us. And as he said, without 
ground forces immediately there, that is what was going to 
happen to this fire. The 35-mile-an-hour figure is a rule of 
thumb and you should consider ceasing fighting fire aerially. 
At that point is not required that we do that.
    Mr. Kucinich. Is there technology that would give 
firefighters a greater lead?
    Mr. Hoskins. We fight fire now, at considerably higher 
speeds than that now. You have to choose your drops more--with 
that in consideration. You don't drop crosswise with the wind 
because it is going to blow it way downrange. If you can drop 
on the flanks of the fire, you can still do it at relatively 
high speed.
    Mr. Kucinich. I want to thank you. I want to go to Mr. Issa 
now. I took about 10 minutes there, so you can do the same.
    Mr. Issa. No problem, Mr. Chairman. Hopefully we will have 
a second round at this time.
    Mr. Kucinich. We will. I want to thank Mr. Hoskins. Thank 
you.
    Mr. Issa. Billy, before you go----
    Mr. Hoskins. Yes, sir?
    Mr. Issa. I will start with you since you don't have a 
chair. You are a contractor out of Ramona?
    Mr. Hoskins. That is correct. All of the current air tanker 
pilots are contracted to the State of California. We work for 
DynCorp at this present time.
    Mr. Issa. Right. And the aircraft that you brought to bear 
on a surge basis out of Ramona?
    Mr. Hoskins. The Turbine S-2. That is what was operating 
out of Ramona at the time.
    Mr. Issa. OK. I just wanted to make sure that the chairman 
had this, because that is a factor in California, is that some 
of our surge is absolutely contractors at their own expenses, 
that they don't hope for fires but they are there when we need 
them, over and above primary government resources.
    Mr. Kucinich. Thank you, Mr. Issa.
    Mr. Issa. Before you go, Billy, you don't fight fires at 
night under the current rules?
    Mr. Hoskins. No. In my opinion, that technology is a long, 
long way off. We are dealing with terrain that is so abrupt, 
that it is even very difficult for helicopters to fly it at 
night.
    Mr. Issa. I appreciate that. The reason I ask is, almost 
without fail, our winds drop off at night, don't they?
    Mr. Hoskins. That is correct.
    Mr. Issa. So in a sense, if the Federal Government, which 
does not know how to fight and fly at night, were to, as a 
result of this hearing, bring about that technology in time, 
you would be gaining the time in which winds are least of a 
problem and in fact, you know, by definition, the best time to 
fight a fire is when the winds are low, the winds are low at 
night. Is that fair? Forgetting about how long it might take us 
to develop that capability and field it.
    Mr. Hoskins. I will have to agree with that.
    Mr. Issa. OK; thank you. You know, it is one of the big 
questions for us to take back to Washington. So thank you for 
being part of that.
    Mr. Grijalva. Can I clear up one thing for the record?
    Mr. Issa. Sure.
    Mr. Grijalva. Billy is an exclusive contractor with Cal 
Fire. He is not one of the private ``call when needed'' 
contractors.
    Mr. Issa. I understand. But he does have another day--he 
does have another life between fires.
    Mr. Grijalva. No; no. They fly Cal Fire.
    Mr. Issa. Oh. I apologize.
    Mr. Bilbray. Only if he plays golf.
    Mr. Grijalva. They fly Cal Fire aircraft. They are on 
exclusive contract with Cal Fire.
    Mr. Issa. OK. Thank you. I still view them as part of the--
you know, they are part of our surge capability, if you will, 
because that is all that they do is make themselves available 
for that.
    Mr. Roberts. Congressman.
    Mr. Issa. Yes, Ron?
    Mr. Roberts. And maybe you need to direct that question to 
Chief Jarman. But the city of San Diego's helicopters fly at 
night and does fight fires at night, but they are not permitted 
to fight the fires that are under State control during the 
night.
    Mr. Issa. Chief, that may be a good one for you to 
followup. When you have a city-only fire, do you fly at night?
    Chief Jarman. Yes, we do. Copter one was up flying the 
first 24 hours and flew through the night. That is typically 
what we do. It is the difference between a helicopter and a 
fixed-wing aircraft. So that helicopters can fly at night and 
we proved that during the Witch fire.
    Mr. Issa. Thank you. I will take that back with us too. 
Chief, while I am on you, though, you know, we talked about the 
codes in San Diego, and for that matter, California.
    Isn't it fair to say that homes are dramatically safer for 
fire purposes today than they were at any time in the past? In 
other words, progressively, we have been getting rid of shake 
roofs, boxing in eaves, in a sense, eliminating what used to 
make homes fire traps, at least in new construction and major 
retrofits?
    Chief Jarman. I would say that is true in new construction. 
Our challenge are the older homes that are along the edge of 
the canyons, to focus on boxing in those eaves, changing the 
attic vents so the screens are tight enough. I think there is a 
lot of progress we could make there.
    Mr. Issa. So from a standpoint of residential fires not 
related to brushfires and wildfires, your job, in a sense, has 
become better in the last 100 years, that firefighting as we 
used to know it, when homes burned down, and Congressman 
Kucinich and I are both Clevelanders, so we go back to oil and 
all kinds of other heating systems that California hardly knew.
    But the fact is homes burn on a per population basis, less 
today than ever have in the past, and that has been a downward 
trend, hasn't it?
    Chief Jarman. I would say for the most part, it has been a 
downward trend, but last year we actually saw about a 20 
percent increase in residential fires, a change that we are 
looking into and researching to find out what the cause is.
    But typically, over the past 100 years, yes, it has 
reduced. We have made a lot of progress.
    Mr. Issa. And doesn't it give you a challenge in that your 
day to day base load for firefighting is actually lower than it 
was at any previous time? The amount of firefighters necessary 
to do the job is, on a per population basis, is inherently a 
dropping figure, while a wildfire isn't going to drop. That 
surge isn't going to drop a bit?
    Chief Jarman. Well, given the number of high-rises that the 
city of San Diego, the region has experienced, I think it is 
still a challenge for us, as firefighters, to have the 
personnel available, whether it is a high-rise or a firestorm. 
You still need the capacity in order to deal with the----
    Mr. Issa. Are high-rises a greater fire threat per capita?
    Chief Jarman. Than wildfires? No. I would say the wildfires 
are a greater threat per capita based on the fact that the 
high-rises are typically sprinklered.
    Mr. Issa. OK. You know, because from a Federal standpoint, 
we have no basis to participate, nor is it appropriate for us 
to comment on whether you need 20 stations to take care of the 
cat in the tree, the heart attack, or, in fact, regular fires 
that occur on a basis. We do have a role to play in these 
Federal disasters, and that's hopefully one of our challenges.
    Chairman Roberts, you mentioned the canyon structure. 
Presently, the canyons in San Diego County are in fact a 
habitat-run area. In other words, we are not allowed to break 
the habitat capability for endangered species purposes.
    So you have to have a non-broken, for purposes of 
migrations of various species, you have to have a non-broken 
canyon, as a result, substantially, a non-broken fire corridor; 
isn't that true?
    Mr. Roberts. Well, I think that is largely the goal, is to 
provide for movement of wildlife between the various systems.
    Mr. Issa. And a good fire break is also a good break in 
habitat migration, isn't it?
    Mr. Roberts. There are times when the two come in conflict 
with one other; but not in all cases.
    Mr. Issa. OK. Does the county of San Diego have requests 
that would help alleviate the fire risk while maintaining some 
semblance of habitat and endangered species conservation, that 
have not been answered by the Federal Government? In other 
words, are there things you would like to do that we haven't 
let you do?
    Mr. Roberts. Well, I think there are instances where there 
are conflicts between environmental goals and safety goals, and 
I mentioned the possibility and difficulty of retrofitting, 
especially our older communities. In the newer communities, and 
communities that we are planning for tomorrow, we do extensive 
fire studies as part of the planning and then decide what that 
clear zone needs to be along with the other protections that 
need to be built into those communities.
    But it is very difficult, and in some cases it is very 
counter to environmental issues in the older areas.
    Mr. Issa. OK. That is a good one to know.
    Chief Jarman, going back to you for a moment, and because 
we don't have a BLM representative--to be honest, this isn't a 
fed panel--isn't it true that the lands you are speaking of--
and I won't take East County per se--but outside of the 
incorporated area of San Diego, isn't it true that they are 
disproportionately the open areas, Federal and State parks, 
Indian reservations, BLM land, and the like, and aren't those 
the areas of greatest shortcoming in firefighting?
    Chief Jarman. I would say that is a true statement.
    Mr. Issa. So would it be fair for this committee to take 
back that meeting our requirement on Federal lands, including 
Indian reservations, such as the La Jolla reservation that was 
so devastated, and, in fact, that is a very poor tribe that 
does not have the possible resources, that us reevaluating what 
it takes to ``step up to the plate'' to meet those 
requirements, which are outside the county's direct 
responsibility, is a take-away?
    Chief Jarman. I believe it is. We should probably look at 
the fuel loads in those areas, prescribe fire management 
programs, something along those effects within our region.
    Mr. Issa. I appreciate that. In your experience, 
firefighting at night is something that you believe is 
essential in San Diego, and you would again take away that we 
should make this a priority for Federal firefighters?
    Chief Jarman. Yes, I do. The interesting thing about a 
firestorm is the challenge. It seems that between 2 a.m. and 6 
a.m., the winds do pick up. It is different than what we 
typically see on a typical afternoon where the winds are from 
one to five and then they shift. So that is a difference that 
we experience during these firestorms.
    Mr. Issa. I know there is going to be more questions than 
there is time, but just one thing in your experience. The 
tendency toward low water consumption in and around homes. For 
the most part, isn't low water consumption and, in a sense, a 
dichotomy with trying to stop fires?
    We can't grade hillsides there because they will erode. 
Even the various other types of plants that are fairly low, 
they have a tendency to be low in water consumption and easily 
burned, unless you want to have red apple on every single 
hillside in California.
    Chief Jarman. That is true. There was one structure that 
was surrounded by aloe plants, and actually, they believe that 
might have helped slow the fire down. So it is something that 
we have looked to the experts for recommendations along what 
should the citizens be planting.
    Mr. Issa. Thank you. Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you.
    Congressman Bilbray.
    Mr. Bilbray. Mr. Grijalva, the locals have said that they 
can fly helicopters at night but can't fly over the State-
controlled lands. Is that true?
    Mr. Grijalva. Well, right now the--I don't know if it's 
working or not--right now, the Fire Scope board of directors is 
looking at night flying as a policy and has recently released 
new standards for night flying.
    We at Cal Fire are also looking at that, although we do not 
do it right now, at least for helicopters for the future.
    So as long as they are keeping within the criteria 
established by Fire Scope, that they could fly at night. But 
they are not controlled--we are not up in the air at night, so 
our air traffic control managers are not up there at nighttime.
    Mr. Bilbray. Well, this is one of those things we need to 
work out. If the city of San Diego has the capability of 
putting a ``bird'' in the air that could respond, don't you 
think that we should be looking at making sure that we have the 
control system ready to where we could use a resource, if it is 
available right now?
    I mean, in other words, it just seems logical that if a 
resource is out there, we don't want to end up with another 
situation where we ran it again, where the State didn't plan on 
this, or didn't have the capability to tap into certain 
resources that you would want.
    My question again is, if the fire is held--next year--will 
we be able--will you be able to call the city of San Diego and 
say, look, do you have a unit that can fly? She says yes. Do 
you have the ability to use that unit?
    Mr. Grijalva. Well, the way it works in Southern California 
is with the majority of the counties, they are contract 
counties with the State. So, for example, LA County is a 
contract county with the State. They have their air resources, 
they fly at night, and they could fly over SRA at night under 
their control system. So in San Diego, we don't have that down 
there. So there is parts of the State where that can be done.
    Mr. Bilbray. OK. Then we should be talking about what it 
would take to get the protocols and get the relationships to 
use that, and I think that is----
    Mr. Grijalva. We are doing that through the regional 
organization called Fire Scope, looking at it on a statewide 
basis.
    Mr. Bilbray. OK. I understand the statewide basis. I hope 
that we are able to work with the local disaster council, to 
make sure that the system, you know, the degree of urgency that 
we have for the next, you know, seven, 8 months, that we have 
``got our act together,'' so we don't have to be, respond in 
that.
    Mr. Bowman, when you talk about fire suppression being a 
local responsibility, and being a former mayor and county 
supervisor I understand the constitutional issues here.
    Aren't you really, though, saying that it is the local 
property owner, traditionally, has been the one response?
    A good example is if the police--if you have a vacant lot 
that is overgrown, the city of the county normally goes in, or 
the fire district normally goes in and tells that property 
owner you have a responsibility to maintain that property or 
you have a responsibility for fire suppression.
    Is it more fair to say that it is the local property owner, 
the people owning the property in the location that bear the 
real responsibility for fire suppression?
    Mr. Bowman. No. They clearly have a responsibility to 
maintain a fire-safe property.
    Mr. Bilbray. Right.
    Mr. Bowman. The local government also has a responsibility 
to oversee that. My comment, however, was directed at local 
government funding for fire protection.
    If you look at a couple of counties represented here today, 
Los Angeles is one and Orange County is another, I would find 
it prudent that you ask how much money those counties spend on 
fire protection. There is a city fire chief here and we have 
talked about city local funding for fire protection.
    To me, this region, San Diego County, is well behind Orange 
and Los Angeles, and virtually every other county in the State 
of California. That was the purpose of my point.
    Mr. Bilbray. Chief, what percentage of your county is owned 
by Federal and State?
    Chief Freeman. I'm not sure I could give you the percentage 
but it is a relatively small amount.
    Mr. Bilbray. Small amount.
    Chief.
    Chief Prather. Same. Relatively small.
    Mr. Bilbray. Well, for the record, 51 percent of San Diego 
County is owned by the Feds and the State, and I will tell you 
something. If I was a mayor, and somebody, a property owner 
owned half of my city, basically felt that they did not have an 
obligation to participate with the other half, I would say you 
are damn wrong.
    And I think that when the State and the Feds want the right 
to own all this property in San Diego County, then just as we 
say to the private sector and to the private owner, and to the 
city and the county, you have a responsibility to bear your 
proportional responsibilities there, you darn well, we have a 
right to say to the Federal Government--and this is a big 
difference, Mr. Chairman, in your county as opposed to this.
    I mean, you can imagine, you probably get 5, 10 percent of 
your county owned by the Feds and the State back East.
    Mr. Kucinich. Depends on how fast the subprime hits. 
[Laughter.]
    Mr. Bilbray. Right.
    Mr. Kucinich. Not funny.
    Mr. Bilbray. But I think the real issue here is 
proportional responsibility and that is where we do bear more 
responsibility in San Diego County because we have more rights 
in San Diego County than we do in either one of your counties.
    Global Hawk is a good example of the real-time response. 
Somebody was talking about real-time response here. That the 
Federal Government has a capability there, that we can get a 
bird up, get the information to you, so you can see exactly 
what is going on, and this is a capability that we should be 
able to be talking about from the Federal Government's point of 
view.
    It is that real-time response is going to be really 
critical. I want to say that again. I think there is 
proportional rights with this issue but there is proportionally 
responsibility, and the big difference between us and other 
counties in California, especially the urban counties, is we 
are one of the few, if not the only urban county that has the 
majority of our jurisdiction controlled by Federal and State 
agencies.
    I yield back, Mr. Chairman.
    Mr. Kucinich. Thank you very much, Mr. Bilbray. We are 
going to one more round on this panel.
    Picking up on the question that you asked, Mr. Bilbray, and 
the numbers that you cited about 51 percent of the land being 
owned by the State and the Federal Government in San Diego 
County, I would like to start with LA County Chief Freeman.
    How much do you spend annually on fire protection?
    Chief Freeman. About $800 million a year.
    Mr. Kucinich. And what about Orange County, Chief Prather? 
How much money do you spend annually on fire protection?
    Chief Prather. Approximately $260 million.
    Mr. Kucinich. OK. San Diego County, Mr. Roberts.
    Mr. Roberts. I don't know the answer to that.
    Mr. Kucinich. According to staff, the answer is $8 million. 
Now if that in fact is the case, I think the comparison here is 
instructive, even with the fact that you have 51 percent of the 
land owned by the State and Federal Government.
    I want to, at this point, ask Mr. Freeman, in your 
testimony you write that a strong mutual aid system does not 
relieve the locality of its responsibility to assess 
jurisdictional threats and prepare for them.
    Do you feel that Orange County and San Diego County are 
living up to their responsibility of preparing for 
jurisdictional threats, and if not, what do you recommend they 
do to prepare themselves?
    Chief Freeman. I think that my comment applies, in general, 
as a concept. I am not an expert, by any means, on either of 
those counties.
    Mr. Kucinich. Well, your opinion. Would having a county 
fire department improve fire preparedness and response, and has 
there been a case for Los Angeles?
    Chief Freeman. Well, sir, I am not sure that the structure, 
in my opinion, is what is key. I think what is key is what are 
the threats and what are the needed assets, resources, and 
capabilities to address those threats, and then whatever 
structure is determined by the local authorities, and if it is 
a partnership between local, State and Federal, then that 
structure should be decided by them.
    Mr. Kucinich. What about this structure, Chief Jarman, with 
respect to the county fire department and its role in this?
    Mr. Bilbray. I believe a county--a county fire department? 
It would minimize the potential for duplication of services. It 
could provide for more efficient and effective use of the fire 
resources and management. It would enable the equitable 
distribution of fire resources throughout the region. It would 
provide for dedicated full-time resources that would be 
available to address the needs throughout the county.
    Mr. Kucinich. Thank you, Chief.
    Mr. Grijalva, Riverside contracts with Cal Fire for a fire 
department. How is that different with your arrangement, from 
your arrangement with San Diego County, and would contracting 
with the county help you increase your resources?
    Mr. Grijalva. In Riverside County, the way it works is a 
lot of cities contract with the county for fire protection and 
then the county contracts with the State for fire protection. 
So throughout most of Riverside County, city, county and State 
fire department is the same. That is one model that I think 
works extremely well in the State.
    I think the LA County model also works extremely well, i 
which many cities contract with LA County and the State then 
contracts with the county to cover State responsibility area.
    Those are two different models, they both work well, but 
they both work well because both counties invest a significant 
amount of money in fire protection.
    I think those are, from my perspective, looking at a 
statewide perspective, two counties that are models.
    I think Ventura County, Orange County, do an outstanding 
job in terms of prevention. So while they may not have the same 
investment and resources as some of the other counties, they 
have a significant amount of investment in fire protection and 
they do an outstanding job in prevention, which helps minimize 
the need for suppression resources.
    Mr. Kucinich. Thank you very much, Mr. Grijalva. Now a 
final question to Mr. Roberts.
    Chief Jarman mentions that if you ask for fire response 
assistance in the future, that she wouldn't be able to help 
because the city of San Diego is the first priority.
    Is that characterized correctly?
    Ms. Jarman. That is correct.
    Mr. Kucinich. What will the surrounding counties do to 
respond to their fires in that case, and what kind of 
assistance can the county provide them?
    Mr. Roberts. Well, I don't want to misconstrue the chief's 
comments. We have a mutual aid agreement, and I don't think the 
chief is talking about disbanding that, you know, local sense. 
Maybe so.
    Mr. Kucinich. Chief----
    Mr. Roberts. I think you need to understand, though, you 
know, the county model is different. We also don't have a Water 
Department and we don't have a Trash Department. We don't have 
a lot of things you might see with other counties. We have a 
different model. And when you talk about spending, you are just 
looking at a part of this. You are not looking at the total 
picture.
    There is a lot more spent on local fire prevention and 
preparation, and response, than is coming from your staff. It 
is done under special service areas where the funding goes into 
a district. There is a different history here, and I am not 
saying that this is perfect--and we are moving with some 
consolidation--but if you walk away from this, thinking that 
somehow a county fire department is going to take care of the 
issue, then I think that your time will have not been well 
spent. Very well spent.
    Mr. Kucinich. Chief, do you want to respond, based on your 
understanding of fighting fires and the sufficiency of one 
county, based on its historical structure, versus where you are 
at now in terms of the real challenges that you face in meeting 
the firefighting needs?
    Chief Jarman. The mutual aid, day to day, would still be 
there. It is when the firestorms come through, that I would 
have to consider how much can I lend to other cities, given the 
limited resources we have.
    Regionalization and consolidation, without adding 
additional units, will not make any difference in the same 
regional area. So it is one area where we are talking about the 
surge capacity, the additional units, either the 150 from the 
State or the 50 from the county. We have short-term goals, 
which is, what can we do to be ready for next summer? Is it 
possible to get 50 more engines within our county by next 
summer? And then you have the long-range, which is regional 
consolidation, where does it make sense to consolidate and 
leverage our global resources?
    Mr. Kucinich. And, again, you know, this hearing started 
with the assumption, and with the testimony, that those 
involved in fighting the 2007 wildfires did a very good job, 
and especially compared with past efforts. The question today 
is preparedness and looking at the resources that are available 
and the allocation of them. And we have been proceeding in a 
constructive way.
    Mr. Bowman, do you have anything to say about that as the 
former chief, in terms of preparedness and participation?
    Mr. Bowman. Well, I think Chief Jarman made the comment. I 
would just add to it that the city of San Diego, because it is 
well-staffed, is the first agency that is called to send units 
out of the city, and she was asked a question earlier, does 
that have an impact on the city? It absolutely does. If she 
can't restaff the vacant stations that exist because they were 
sent to the outlying county areas, the city of San Diego, then, 
is left ``holding the bag,'' to find out how they are going to 
deploy units to fight that fire, once it comes into the city. 
So she has a definite problem, and there is an impact to the 
city residents when she sends her units to the outlying areas.
    Mr. Kucinich. Does the county have any difficulty, then? 
Does the county ever get stretched thin?
    Mr. Bowman. The county of San Diego is stretched thin on 
every event. What hasn't been said here is that in the 1970's, 
this county opted out of providing fire protection, and thereby 
created these 60-some volunteer agencies that protect the back 
country, the East County that Tracy referred to.
    Volunteer agencies do a great job, but they are volunteers 
and they are not adequately staffed to handle any kind of a 
major event. So the county cannot respond, in effect, the way 
an Orange or a Los Angeles County could respond, with a fully 
funded, adequately served, fire service agency.
    Mr. Kucinich. Thank you very much, Mr. Bowman. I want to, 
at this point in the hearing, say it is uncommon for the kind 
of cooperation that Mr. Issa and I have had throughout our time 
serving as Chair and ranking member, but it is also uncommon to 
have a chairman of one party, the majority party, pass the 
gavel to the ranking member of the minority part. But in 
recognition of our close working relationship, I am going to do 
that right now. I am going to have to leave. But I want to 
assure my good friend, Mr. Issa, by continuing cooperation--I 
have some other questions that I will submit for the record and 
engage our witnesses further.
    But, again, Mr. Issa, thank you very much for this hearing, 
and at this point I am going to be leaving. But at this point 
you are now the Chair, so----
    Mr. Bilbray. Don't say I didn't warn you on what he was up 
to as soon as you leave the room, though.
    Mr. Kucinich. I have complete trust in this man.
    Mr. Issa. Thank you, Mr. Chairman, and I appreciate you 
holding this in the limited time you had available.
    Mr. Kucinich. I am sorry. Before I leave, I just want to 
make sure that I thank the Fallbrook Center here, and Fallbrook 
Public Utilities District, for making this wonderful facility 
available, and also for the members of the staff of the 
majority and the minority, for their efforts in traveling here, 
as well as participating in structuring this hearing. So 
thanks.
    Mr. Issa [presiding]. Thank you, Dennis, and it really is 
unusual. Congressman Kucinich and I had the privilege of 
working in opposite roles in the last Congress, and it was 
bipartisan. It has been bipartisan on every one of our hearings 
in Washington. It is kind of unusual but perhaps opposites 
attract, and it works out perfectly for both of us. Plus, 
again, I have to keep my brother happy.
    Brian, you will now represent the loyal minority in the 
rest of the hearing.
    I want to followup on what Chairman Kucinich was getting 
to, for a couple of reasons. I have had the privilege of 
representing Orange County, Riverside, and San Diego Counties, 
and Chief Prather, if I get it correctly, Orange County is 
different than San Diego County in that substantially, you are 
a county of cities. You are not a county, any longer, of 
unincorporated areas, to any great extent.
    Is that fair to say, for the record?
    Chief Prather. We are sort of like what Chief Grijalva 
described in Riverside. We have contracts with 22 of 34 cities, 
and the unincorporated area, and governed under the JPA laws of 
the State of California.
    Mr. Issa. Right. But your decision to have a county 
structure is a decision by your various cities. You know, I was 
there when the last couple cities came in, and, you know, 
basically, you are a county of cities. You are not a county of 
large Federal and State and unincorporated areas. That is not 
where most of the residents or most of the land is held.
    Chief Prather. For the most part; yes.
    Mr. Issa. OK. You know, when I contrast that to--and I 
asked for a reason.
    Chairman Roberts, if we were to take Encinitas, Carlsbad, 
Vista, Oceanside, San Marcos, Escondido, El Cajon, National 
City, you know, go through the incorporated areas, if we take 
those out, the one thing I find interesting is all those cities 
have no State or Federal land in them, to speak of. By 
definition, Camp Pendleton is not in Oceanside, and so on.
    Mr. Roberts. Well, Miramar, and many other bases are in----
    Chief Prather. We didn't mention San Diego.
    Mr. Issa. No. I am not counting San Diego.
    Mr. Roberts. You are excluding the city of San Diego?
    Mr. Issa. Right. So excluding the city of San Diego, and 
excluding those other----
    Mr. Cavage. Imperial Beach is the only one with major----
    Mr. Issa. OK. But take all of those cities out, just take 
those out because they are not part of the county structure, 
currently. If you were to take the remaining lands, including 
here, in Fallbrook, and put them under a county fire 
department, how much of that would be Federal and State lands?
    In other words, when you take out all of our cities, 
instead of 51 percent, don't you end up with about 90 percent 
would be Federal and State lands, and a relatively small amount 
of the burnable area would actually be the homes and people of 
the unincorporated county, and East County is probably the 
exception. But certainly, in North County, you generally get 
into Federal and State land, pretty quickly, when you get out 
of the incorporated areas.
    Mr. Roberts. Right. You actually do in the East County 
also. But I don't know what that percent--I have no idea. It 
would be a pretty high percentage. I suspect it would be 
somewhat less than 90 but it would be a significant percentage.
    Mr. Issa. OK. So rephrasing what I asked earlier, because I 
think it is worth making sure it is in the record: If we were 
to have the Federal Government and State agencies live up to 
their obligation at the level that Chief Jarman lives up to in 
the city of San Diego, wouldn't we be not having this 
discussion we are having here today, about the county versus 
the city?
    Isn't the substantial portion that you have, better than 
half of the geographic area of the county, is owned by the 
Federal Government or the State government. They are generally, 
you know, undeveloped, highly combustible, and untaxed. They 
represent no revenue to the county, or to the city, and they, 
in fact, are, for the most part, relatively sparsely protected 
by firefighting organizations.
    I look at the La Jolla Indians. They rely on BLM, 
primarily, with some contract capability. Rincon has a 
firefighting capability, that substantially is to take care of 
their incorporated area within the tribal areas. Pechanga, the 
same thing, and so on. Their fire departments are not nearly 
sufficient to take care of, in some cases, tens of thousands of 
acres.
    Mr. Roberts. I lost the question. I am sorry.
    Mr. Issa. The question is hasn't the record been made a 
little bit unclear, in that if the county simply said, OK, we 
are going to have a county fire department, what would you 
really man, if the Federal and State are supposed to take care 
of theirs? What would you really be manning, today, in the way 
of--and Fallbrook is probably one of the exceptions.
    Mr. Grijalva. Ramona and Chula.
    Mr. Issa. Well, Ramona. But that is the whole question, 
because I want to make sure that we don't misunderstand. You 
are not Orange County and when we take out Federal and State 
lands, and take out the incorporated cities, there isn't that 
much left, is there?
    Mr. Roberts. Well, there are some significant populated 
areas, but I mean, your point is well made, and it really goes 
to the comment that I made, that if you left here thinking that 
a county fire department is automatically going to be a 
solution to this--the city and the county have a good working 
relationship.
    In fact all of the cities in the county, in this region, 
participate in the Unified Disaster Council, that in many 
respects could be a model for a lot of the other areas. We have 
some different circumstances in both geography, and 
organization, and Federal and State ownership, and because, as 
an example, perhaps a different way of doing things.
    But, you know, with all due respect, the reason why the 
city of San Diego has a helicopter is because a supervisor went 
out, initially, and was able to get the money for that. Not 
that they funded it on their own. In fact, it is an ongoing 
supply of money to help them sustain that, both in corporate 
giving, which a certain supervisor helped to put together, and 
in a sustaining fund from what is called the Safe Port.
    So there is a good working relationship. I don't want to do 
anything to harm that. In fact, we are looking at how we can 
most effectively bring resources, and, you know, among the 
things we need to do a better job at is our brush management, 
and other things that are virtually no cost, other than the 
fact that you need to have your fire departments and your fire 
marshalls going out and enforcing the rules.
    And in neither the city of San Diego, or in the county, or 
in any of the other cities, these efforts are at maximum right 
now. So, you know, there are some things we need to do locally, 
that I can assure you that we are going to be recommending and 
moving forward on. The question of, you know, whether having 
one fire department is a solution, or not, is not as clear to 
me as it might be to some others.
    Mr. Issa. Well, and I want to do one closing question. The 
county maintains an Emergency Response Center. That is where we 
met during the fire.
    Mr. Roberts. That is correct.
    Mr. Issa. That is not included in the $8 million that you 
put into fires, but it was an asset brought to bear, wasn't it?
    Mr. Roberts. There are a number of things. I told you, and 
I suggested earlier--I shouldn't say I told you--and the 
chairman, in fact, acknowledged, that we have spent $130 
million over the last 4 years. It wouldn't take much of a 
mathematician to figure that is in excess of $8 million a year.
    Mr. Issa. OK. I am going to give everyone just a quick last 
chance to followup with each of us, but I am going to put 
something out here on the table, not just for the record, but 
as a take-away for those of us going back to Washington.
    If I understand correctly, separate from Federal and State 
issues, if the Federal Government were to, one, evaluate the 
ability to create safe zones through forms of clearing or forms 
of modifications that would allow for better fire breaks, that 
would be something that would be helpful in the case of this 
and future fires.
    The efforts that we have made to allow for constructive 
clearing of dead lumber, dead trees, and so on, particularly 
the pine infestation, is doing some good. We should continue to 
support that.
    The assets, such as Predator and Global Hawk, that were 
brought to bear, with their ability to see through smoke, the 
ability to see in an environment in which the naked eye may not 
be good, and their ability to fly at night, is something that 
we should be exploring, whether more of that could be brought 
to bear as a resource on day one of a fire and other 
emergencies.
    The ability of all assets to be able to fly at night and 
perhaps the Federal Government funding the ability for these 
resources to be better able to do it.
    I will say as to the C-130J's, you know, they are a State 
asset, they will be in place in 2008. But they are a Federal 
asset, we provide them and pay for them, and should be 
embarrassed that it took so long to get the J model with an 
effective FAA-approved retrofit for their suppressive 
materials.
    But that certainly is an example of an asset that we know 
flies in above 35-mile-an-hour winds. And I am going to close 
with just one question. We have technology in the military for 
precision bombing, that can deal with incredible amounts of 
wind and other activity.
    Do you believe--this may be an aeronautical thing--that the 
Federal Government also should be looking about whether we have 
technologies that would automate the ability to drop in high-
wind situations, in difficult situations, better?
    In other words, can we bring more technology to bear in the 
fight against fire, when we have these high winds and a human 
being is just frustrated by trying to drop in 40-, 50-, 60-
mile-an-hour winds.
    I see a head shaking. Is that a yes, that we should take 
that away? [Laughter.]
    We should invest a little more in microphones the next time 
we come down from Washington.
    Mr. Roberts. In our written testimony we addressed that 
subject, and, in fact, there are some things being worked out 
with respect to suppression that it would be in direct response 
to what you asked. It is underfunded. These people are just 
hanging on by their fingernails. We have some illustrations in 
the testimony as the concept that we think has that potential.
    Mr. Bilbray. Mr. Chairman, can I followup.
    Mr. Issa. Actually, we are going to let you close on this 
one. Go ahead.
    Mr. Bilbray. OK. Following up on that, having spent some 
time with the firefighters out there, the fact is it is high 
altitude, usually vaporizes before it reaches the fire, and I 
know they are working on this balloon application for portable, 
so you don't have to use a tank. But it seems, as a layman, 
that the capability of using the balloon concepts, to be able 
to use high, so you don't have the vaporization, that basically 
you have some kind of container, small containers that can 
deliver the product onsite, from a higher altitude, where it 
wouldn't vaporize, is there anybody working on that kind of 
technology?
    Mr. Cavage. You are right on target. Look in our submittal. 
There are pictures of that concept, that they are already 
beginning early stage development.
    Mr. Bilbray. OK. I guess 35 years in Government, you 
finally pick up something every once in a while. OK.
    Mr. Cavage. Right now, you have a transport aircraft that 
has a rear-loading ramp. You have an opportunity that you ought 
to explore.
    Mr. Bilbray. OK. Anybody that has ever seen a water balloon 
launcher hit somebody, you know how effective can be. But I 
won't identify my children as being one of those people that 
launch water balloons.
    Mr. Issa. You Tube has already identified them, Brian.
    Mr. Bilbray. I know. You know, Mr. Bowman, you were 
pointing out the fact in the 1970's, the county abandoned the 
efforts, and I think it is only fair that we all talk about 
some base issues here that the chairman has to put up with.
    We talk about the capabilities, being able to be online, 
but we ignore too often--I would say this to the State 
legislators--the fact is the money has to come from somewhere. 
We have over 50 percent of the territory exempt from 
assessment, and then, in the 1970's, Mr. Bowman, San Diego 
County was locked into the lowest rate in the entire State, and 
was punished because it hadn't been locked in to where--you 
know, LA County, you can see how much a larger portion of the 
``pie,'' of the property tax they are able to get because the 
State was able to do that, and because they had aggressive 
legislators who were willing to protect their ability to raise 
revenue.
    San Diego County has always been at that short end, at the 
lowest level in the county. In fact, the only one that even 
gets close I think is Orange County.
    So where there is no money, there is not going to be the 
capability of spending the money. And so I think that one of 
the challenges we have to recognize is we are going to have to 
try to build on that.
    But we can't just throw money at this problem in San Diego 
County cause the legislature, unless somebody enlightens them 
to the fact that equal protect under the law means San Diegans 
get equal protection with San Francisco, which gets twice the 
percentage, we ought to be talking about the fact that we need 
to be not just looking at being bigger. We need to talk about 
being smarter, and we are forced to have to be smarter because 
we don't have the resources down the line.
    Mr. Chairman, I think that everybody here has to recognize 
that we have our job to do. Mutual Aid has been great for San 
Diego in extreme north and south, where you have the smaller 
cities that can respond. city of San Diego, say, Coronado, back 
in the late 1970's, when they didn't want to be part of mutual 
response, and sure as shootin', the Landing Fire was the 
biggest urban fire at that time, and kind of persuaded the 
naysayers that participation was good.
    I just have to go down the line and say, though, that, you 
know, we all have our things. I think the chairman and I are 
going to work at making sure real-time capabilities are there, 
because it is fine to have the capabilities to drop it but if 
you don't know where the fire is, in real-time, then it can't 
be done. And that is our job and we will work on that.
    The State of California, I think it is fair to say that we 
ought to damn well make sure, before we get to the next fire 
season, that we have worked out the way to be able to have our 
resources in the air in San Diego, like we are in other States, 
and I think our challenge there is to make sure that capability 
works on that aspect.
    The counties, the county chairmen, and the coordination 
that needs to be done there, needs to continue to work with you 
in making those bridges.
    But I think the biggest thing here is that rather than 
pointing out all the problems that we have had, which we have 
had some big problems, we should leave here, not pointing 
fingers, except understanding that we need to do our part to be 
able to go on. Like I said, money alone is not going to solve 
this, cause it is not going to be there.
    We do need more resources, but we also need to be smarter, 
and I hope we all walk away from this aware of that. Thank you 
very much. I sure appreciate the chance, and it is kind a nice 
to be able to sit down and talk to local government people who 
actually do things, rather than the Feds that we always have to 
work with, who do a lot of talking and not much action. Thank 
you very much.
    Mr. Issa. Thank you, and that certainly makes a case 
against term limits, when you have 35 years of experience 
speaking. I would like to thank our extended first panel.
    With your indulgence, Members that were not here today, 
upon reviewing the written record, may have questions.
    Would you all agree to answer, in writing, if you are given 
questions by committee members who couldn't come out to 
California. Thank you.
    Mr. Issa. And with that, the first panel is dismissed. We 
will take about a 5-minute break before the second panel comes 
up.
    [Recess.]
    Mr. Issa. I apologize. There wasn't time to change the name 
tag to Chairman Issa. But I think we will get through this OK 
without the promotion.
    We now go to our second panel, and with your indulgence, if 
the people from the third panel arrive in time, we are going to 
consolidate, seeing as we are kind a consolidated here at the 
dias.
    Ms. Nancy Ward is the Region IX Administrator of FEMA. I 
could do a longer bio, but that pretty well says it all. and 
Mr. Mark Rey is the Undersecretary for National Resources and 
the Environment for the U.S. Department of Agriculture.
    Mr. Rey, we appreciate your being here. We had about 10 
requests for different people from USDA, and they said you 
could answer all the questions. So they ``threw you under the 
bus,'' and hopefully, you will appreciate that the questions 
may fall outside your ability to answer in real-time, and also, 
Ms. Ward, that may happen to you, but we are a committee of 
oversight that is perfectly happy to take things in writing, 
for the record, and then act on them, because the complete 
committee report will probably take as much as 30 days to 
complete and put into an action plan.
    So, with that, I would ask both the witnesses to rise and 
raise their right hands.
    [Witnesses sworn.]
    Mr. Issa. Let the record show that both witnesses answered 
in the affirmative.
    Ms. Ward, you probably heard earlier, that your entire 
statement will be put in the record, so it is best if you 
assume that you have said all of that, and now, for the next 
five or so minutes, if you would use it as a basis to give us 
that which may not have been within the federally authorized 
proofed, vetted, and allowed-to-be-said record, and you have my 
personal assurance, that if you go off your notes, there will 
be no repercussions.
    Administrator Ward. Absolutely.
    Mr. Issa. Please go ahead. Thank you.

 STATEMENTS OF NANCY WARD, REGION IX ADMINISTRATOR, FEMA; AND 
    MARK REY, UNDERSECRETARY FOR NATIONAL RESOURCES AND THE 
          ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

                    STATEMENT OF NANCY WARD

    Ms. Ward. Thank you, and it is a pleasure to be able to 
participate today. As you know, I am the Regional Administrator 
for FEMA Region IX, and so the firestorms in October were under 
my responsibility as being in Southern California.
    As you know, the 2005 hurricane season was a catalyst for 
change and improvement with FEMA, and in my vast experience in 
emergency management, I can tell you that the Federal 
coordination for the California wildfires response has been 
unprecedented in the level of collaboration and cooperation 
between all of the partners, not only Federal, State, tribal, 
local and voluntary organizations.
    I personally, on the first day, went to the State 
operations center to initiate joint operations. On Tuesday, 
FEMA started holding video teleconferences with Federal 
agencies, State agencies, and the president declared a major 
disaster declaration and designated my call to the Federal 
coordinating officer, who is also here with me today, and 
within 24 hours an integrated joint field office was 
established with Federal response teams from multi-agencies, 
and many more other personnel on the way to assist.
    To give you a brief scope of the Federal response, FEMA 
staged more than 79,000 liters of water, 24,000 cots, 42,000 
meals-ready-to-eat, and, in addition, provided 42,000 blankets 
and other types of sheltering response items to support 
sheltering efforts.
    FEMA's Joint Field Office issued 92 mission Assignments, 
totaling more than $40 million, for direct Federal assistance 
from our partner Federal agencies in support of the State and 
local governments.
    And even as local and State firefighters were still 
responding to the immediate fires, and they were not as yet 
distinguished, key elements of Federal-State strategy for 
recovery types of activities were initiated, and a housing task 
force to support local governments in identifying short- and 
long-term housing options for displaced residents. A debris 
management task force, which we knew would be a huge issue, so 
that we could thoroughly and timely remove the disaster-related 
debris.
    A multi-agency support group which was initiated to support 
local government in addressing, in an environmentally sensitive 
way, the future flooding and erosion and debris flow concerns 
for the upcoming rainy season, and we have already seen some of 
that actually play out.
    And then finally, a tribal task force to help the affected 
tribes to get technical assistance and supplemental assistance.
    So I can tell you that firsthand, the wildfire response, 
that FEMA has learned that we cannot wait for a State to become 
overwhelmed prior to offering assistance, and by pressing 
forward an engaged partnership with the State, FEMA ensures 
that the resource gaps are filled and that the residents can 
get the much-needed assistance more efficiently and 
effectively.
    This certainly helps with our mission to reduce the loss of 
life and property, and I would like to thank you again for the 
opportunity to participate.
    [The prepared statement of Ms. Ward follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. Thank you.
    Mr. Rey.

                     STATEMENT OF MARK REY

    Mr. Rey. Thank you, Mr. Chairman. The fire community, 
perhaps uniquely, among government entities, values after-
action reviews, because new lessons can almost always be 
learned, and result in improved performance, and shortly, I 
will speak to a couple of areas of improved performance, 
particularly with respect to the use, in Southern California, 
of military reserve and active aircraft.
    But results do speak for themselves. So I think it is 
instructive to compare the 2003 fire siege with the one we just 
experienced in 2007, because they provide benchmark years.
    I will compare them for all seven Southern California 
counties in 12 key areas. First, with regard to preparedness, 
as my testimony indicates in detail, there was better 
prepositioning of a larger number of assets in 2007 than was 
the case in 2003.
    The 2003 event was an event of 15 days of duration, whereas 
the 2007 event was an 18 day event with sustained higher winds, 
and drier fuels. In 2003, there were 213 ignitions. In 2007, 
271 ignitions. Those resulted in large fires in 14 cases in 
2003, and 20 cases in 2007.
    That means that the initial attack success rate was 
identical in both years, at 93 percent, with more fires and 
more severe conditions in 2007.
    In 2003, the event burned 750,000 acres. In 2007, 518,000 
acres. In 2003, we lost 5,200 major structures. In 2007, only 
3,050 major structures. There were 24 civilian fatalities and 
one firefighter fatality in 2003. There were 10 civilian 
fatalities and no firefighter fatalities in 2007.
    In 2003, 237 firefighters were injured. In 2007, only 140. 
In 2003, we evacuated upward of 300,000 people in the seven 
counties. In 2007, we evacuated upwards of a million people in 
the seven counties involved.
    Since 2003, the Federal land managing agencies have treated 
275,000 acres for fuel reduction purposes, with an investment 
of $300 million. In my testimony or attached to my testimony, 
you will see results of fuel treatment work that did save 
communities and homes, particularly in the San Bernadino 
incident.
    Unfortunately, as a consequence of a court decision handed 
down by the 9th Circuit Court of Appeals on December 5th, the 
rate of fuels treatment was slowed significantly.
    The 9th Circuit reversed the Eastern District of 
California, eliminating the use of categorical exclusions for 
fuels treatment work, which will reduce the amount of fuels 
treatment work that we can do by about 14 percent over what has 
previously been accomplished.
    In particular, some projects on the Cleveland National 
Forest that helped save Mount Palomar, would now be not lawful 
under the 9th Circuit decision.
    Even though 13 is considered an unlikely number, let me add 
a 13th factor for comparing 2003 and 2007. Since 2003, 180,000 
new homes have been built in the wildland-urban interface in 
these seven Southern California counties. That is right at 60 
percent of the new home construction, regionwide.
    So in 2007, there was a lot more to protect, and there 
likely will continue to be.
    Now in terms of areas of improvement, we do believe that 
effectiveness could be improved by consummating the local 
agreement between Cal Fire and the Marines for the use of 
Marine helicopters.
    We also believe that a stand-ready mechanism for the C-130H 
MAFFS could expedite their call into duty, and as the testimony 
has already indicated on the first panel, we are completing the 
work of outfitting the C-130J series, so that they will be 
available for the next fire season.
    In every after-action review, two separate questions must 
be asked. First, were there things that could have been done 
better? The answer in this case, and almost always, is yes. 
Second, were the things that weren't done as well as they might 
have been, things that materially affected the outcome of the 
incident?
    In this case, in the case of the use of military aircraft, 
there is no evidence to indicate that would be the case.
    With that, I would be happy to submit the balance of my 
testimony for the record, and respond to any questions.
    [The prepared statement of Mr. Rey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Issa. Thank you.
    Mr. Rey. But I do have some helpers here who I can call on, 
if needed.
    Mr. Issa. OK, and unless they require an in-depth 
questioning, we will just assume that they will whisper in your 
ear and you will then know all you need to know to tell us.
    That is because of the limited microphone. I want to make 
things work really well without passing it any more than 
necessary.
    First, Ms. Ward, I have to start off with a little bit of a 
criticism, and I hope you will take it--and I believe my staff 
has let you know about this in advance.
    I have a constituent, Ms. Amy Wheeler, who, on 10-22, had 
her and her mother's mobile home burn to the ground. And it was 
unsavable, as mobile homes often are, once they get going. She 
called FEMA on 10-24, as soon as the declaration was made. She 
received a denial letter on 11-2, and I have that denial 
letter, and what I find amazing, this is--and she has been 
told, and I have the whole situation, that I will give you for 
the record, or for your records.
    Essentially, there is an automated denial that says, yes, 
you have asked, yes, you may have had your house completely 
burned to the ground, yes, FEMA people were on the ground and 
FEMA people were out looking, and yet it says, ``Determination: 
ineligible, insufficient damage.'' Mobile home is completely 
gone.
    This is a category, housing assistance, and the language, 
and I'm not holding you responsible; but you are the messenger 
here.
    Ms. Ward. Absolutely.
    Mr. Issa. ``Based on your FEMA inspection, we have 
determined that the disaster has not caused your home to be 
unsafe to live in.``
    Let's just say it continues on from there. This is one of 
hundreds, actually, probably thousands at this point. But 
hundreds of letters that were sent to people who lost 
everything. And I realize, and I have been told in the past--
actually, I was told in anticipation, that nobody is proud of 
this letter.
    Ms. Ward. That is correct.
    Mr. Issa. Do you need the Committee on Oversight and Reform 
to write a letter to replace this letter? Or can you take back 
with you the clear instructions, that a letter that, on its 
face, is only going to serve to cause further pain and 
suffering to the people who receive it, that FEMA will make a 
change without legislative action.
    Can you give us a reasonable assurance of that today? Or at 
least that you will carry it back.
    Ms. Ward. I think I can, sir. In the case of Mrs. Wheeler, 
I actually think that there might be two, actually, two 
problems. I think the hundreds of letters that you refer to, 
that they received denials, were due to the homeowners or 
residents having insurance, and at the time that they called 
and registered for assistance, they had not been told of what 
their insurance or disposition would be to their insurance 
claim.
    I think, unfortunately, Mrs. Wheeler should have received 
that still ``bad letter,'' but I think in Mrs. Wheeler's case, 
she received a letter that probably should have been replaced 
by the insurance letter denial.
    And basically what it does is ask them to settle with their 
insurance and then come back to FEMA with what that disposition 
is, so that we could assist possibly with any unmet needs, and 
we know that, we are changing, are hopefully changing the 
letters. I don't think that the committee has to do it in 
legislation. But we are very aware that these letters of the 
insurance denials caused much consternation, and certainly much 
confusion in the way they are worded.
    Mr. Issa. Let me ask you a question because I realize that 
we can do what we usually do, except in this case the Committee 
on Oversight--I have to be a little careful when I say this--we 
could blame the lawyers, except our staff tend to be lawyers on 
this committee.
    But wouldn't it seem reasonable to you, as regional 
director, somebody who has to deal with the people, that the 
full and complete truth, either for Mrs. Wheeler and her 
mother, or anybody else, is one, we recognize that your address 
is within the affected area, therefore you are eligible.
    Two, we recognize that you have met the 60 day requirement 
to make a claim, something that is critical because you don't 
make the claim, you are done.
    Ms. Ward. That is correct.
    Mr. Issa. Three, at this time, information is insufficient 
to verify whether you will receive funding. Here are the 
factors. Boom, boom, boom. Please be aware that your file shall 
remain open for further followup. Use this reference number.
    Now that is the way my insurance company would probably 
have dealt with my house burning to the ground, and I don't 
know how much, you know, how much I lost in it.
    Is that, in layman's terms, a tool that will be helpful to 
you, when you deal with people who have had these catastrophic 
losses?
    Ms. Ward. Absolutely. I couldn't agree with you more, and 
there is probably hundreds of FEMA reiterations that went back 
to Washington, asking for that type of rewrite.
    Mr. Issa. OK. I have to tell you, Bobby Jindal is a dear 
friend of mine. He came into Congress 2 years after I did and 
we have been dear friends. He now of course is the Governor-
elect in Louisiana.
    He brought me stories like this----
    Ms. Ward. Oh, yes.
    Mr. Issa [continuing]. And they didn't hit home until one 
of my constituents have one.
    Ms. Ward. Absolutely.
    Mr. Issa. And I went: But the whole trailer park is gone. 
It is not even just this house.
    Ms. Ward. That is exactly right. That is exactly right.
    Mr. Issa. So I appreciate that and I appreciate your good 
demeanor as we made that point abundantly clear.
    Can I ask that you take special attention as to Mrs. 
Wheeler and make sure that she gets an appropriate personal 
letter----
    Ms. Ward. I will. I was not made aware of Mrs. Wheeler but 
I will take your letter, and make sure that someone 
specifically calls her and goes over.
    Mr. Issa. OK. That would be helpful, because I think she 
deserves at least something that isn't automated.
    Ms. Ward. Absolutely. I couldn't agree more.
    Mr. Issa. I am going to switch over to Mr. Rey for a 
second. I told you that you are all of USDA, and I know you 
were in the audience earlier, so you heard tremendous accolades 
for the work you have done to diminish, in some cases, and I am 
particularly happy that Palomar mountain, that hadn't had a 
fire in, I understand, 37 years, was savable, where, without 
some of that clearing, it probably wouldn't have been.
    But isn't it true that what sounds fairly small, 14 
percent, that you won't be able to do, isn't it really a 100 
percent of some areas that is 14 percent of the clearing? It is 
not like you clear 14 percent less.
    Mr. Rey. That is correct. There will be some areas where 
projects are scheduled that will have to be delayed or 
abandoned, at least delayed a year at a minimum, as we move to 
retrofit the project and comply with this new decision.
    Mr. Issa. So for the next foreseeable year or two, until 
either the courts or processes change, we have areas that won't 
be cleared, and as a result ,harm to homes and lives is clearly 
in jeopardy as a result of this court ruling.
    Mr. Rey. We estimate that about 400,000 acres of 
treatments, nationwide, will be delayed by this ruling, putting 
people at risk and in harm's way.
    Mr. Issa. In a prudent perspective, California being the 
poster child for that, how much of that 400,000 is here?
    Mr. Rey. A fairly significant amount. I can get you the 
specific----
    Mr. Issa. Somewhere between a quarter and three-quarters, 
though. It is a big chunk.
    Mr. Rey. Yes. Probably about 30 to 40 percent.
    Mr. Issa. OK. That is one that goes beyond just my 
committee, but certainly we are going to be watching.
    As to USDA, I have a particular ``bone'' to pick that I 
think you are already aware of. We don't want to blindside 
anyone. But why is it, corn is a crop, and avocado isn't?
    Mr. Rey. Well, they are both crops but----
    Mr. Issa. One of the you cover and the other gets no money.
    Mr. Rey. For disaster payments?
    Mr. Issa. Yes.
    Mr. Rey. Yes. You know, that is a different part of USDA 
than the one that I run, unfortunately.
    Mr. Issa. I warned you.
    Mr. Rey. But I can get you a response for the record.
    Mr. Issa. OK.
    Let me ask you a question because I want to make you take 
the legalese hat off.
    Corn takes, you know, less than a year to grow. It is 
seasonal. If you burn it all to the ground, the next year you 
actually probably get a better crop because you have the 
benefit, if you will, of all that burn. Avocados, almonds, 
pomegranates, any number of other orchard type crops, you burn 
them, you have 5 years before you get anything.
    Doesn't it fly in the face of common sense, that, in fact, 
the disaster is far worse in the case of the loss of an 
orchard, because it is far longer than it is in the case of--
whether it is radishes or corn.
    Mr. Rey. Annual crops.
    Mr. Issa. So is there any sensible reason you can justify 
this in your mind, that I should be aware of, or this committee 
should be aware of?
    Mr. Rey. I think part of the reason that the crop insurance 
program doesn't yet reach perennials like orchards is the 
premiums would have to be significantly higher.
    You know, the Farm Bill is currently before Congress. There 
are some new proposals for disaster assistance. That might be 
something we can look at as the Senate-House conference on the 
Farm Bill continues. It starts its deliberations after the 
Senate has completed its work.
    Mr. Issa. OK. I am going to make the assumption, for the 
record, that it has more to do with the amount of Congressmen 
that get lobbied, in how many States, for how many votes.
    Certainly, when I look at the sugar subsidy and the ethanol 
subsidy, I don't have any question, it has very little to do 
with the common sense, but, rather, with how many back yards it 
is in.
    As far as you know, is there any leeway--and this is 
perhaps good for the USDA--leeway in the current law that would 
allow these strict Federal guidelines to be waived or limited? 
In other words, do you have any jurisdictional capability to do 
any more than you are presently doing for the constituents that 
are right here in Fallbrook, for example, with their avocado 
losses?
    Mr. Rey. We met with a number of the 2-weeks ago and the 
Farm Services Agency, which is the agency that runs the 
preponderance of the disaster assistance programs, is looking 
in now at what the length of our flexibility is to provide some 
assistance. So we are looking pretty hard at what we can do.
    Both the Farm Services Agency and the Natural Resources 
Conservation Service have made some money available. So while 
we might not be able to give them crop insurance relief, we do 
have some other disaster relief that is being made available to 
them.
    Mr. Issa. OK. As you know, it is over $30 million, and I 
mentioned avocados. Unfortunately, ornamental trees and shrubs, 
basically everything we do here in Fallbrook seems to be not 
covered.
    Mr. Rey. Right. There is a lot of nursery stock that was 
damaged in the fire.
    Mr. Issa. Yes; an awful lot. This is not directly related 
to you but it is pretty significant to the people in this 
district, and because I note, or noted that the Governor's 
office had representation here, I wanted to make a point that 
the Army Corps of Engineers has been unable to clear the San 
Luis Rey River of trees and brushes, which first of all burn, 
and second of all, clog the ability for draining of the San 
Luis Rey.
    So if you don't end up getting burned as a result of this 
river that runs through the area, then, instead, you will 
simply flood the surrounding communities, and that failure is 
because the Fish and Game, the State agency, has decided, after 
almost 20 years, that they are entitled to 65 acres of 
mitigation not previously asked for, when, in fact, this 
project was fully federally mitigated.
    I thought I would mention that only because, one, we are 
still talking fire, and two, we are about to go into flood 
season, and I thought I would take advantage of your presence 
to make at least the representatives of the Governor well aware 
that the issues that we have related to agencies don't end with 
fires.
    Mr. Rey. And we did have experience, post 2003 fire, that 
we had some catastrophic floods as a consequence of the failure 
to get brush cleared. So that is a real problem.
    Mr. Issa. And I guess back to FEMA, I will ask the easy 
question. When you say meals-ready-to-eat, you are talking 
about military MRE types?
    Ms. Ward. That is correct.
    Mr. Issa. OK. I am an old C ration guy, so I actually think 
those are an improvement.
    Ms. Ward. Yes. Absolutely.
    Mr. Issa. And the good news is is if you have one left 
over, it is good for years.
    Ms. Ward. That is right.
    Mr. Issa. But other than the successes--and I want to 
congratulate you, not just at the Qualcomm Stadium, but 
throughout the region. FEMA arrived quick. You brought people 
in from all over the country. The blue shirts were immediately 
noted, and I think that helps dispel the idea that every 
disaster is going to be another Katrina or Rita, that in fact 
FEMA can do and do well.
    But nobody said a word, in the earlier panel, about any 
shortcomings that FEMA had in this process, and I think you 
should be commended for that. But what are your lessons 
learned? What resources should we, in the Federal Government, 
be adding to your capability that you have learned as a result 
of this disaster?
    Ms. Ward. Well, quite honestly, Congressman, I think you 
are already doing that in terms of the post-Katrina reform act 
and the budget that FEMA has benefited from since Katrina.
    As you know, prior to Katrina, FEMA was no bigger than a 
medium size high school, and we are now finally getting the 
resources that we need. One is we are establishing incident 
management teams, that actually, right now, they are an 
ancillary duty, so we will have permanent teams that can work 
with the State and prepare for them.
    Second, we are doing 24-hour watch centers for situational 
awareness, which is benefiting us greatly.
    In terms of the fire, I think one of the successes that we 
tried here, in California, for the first time, and we will 
continue to do, and we have learned greatly from, is the 
unified command with the State of California, very, very early 
on, and putting Federal and State division supervisors down 
with each local government.
    We have not tried that before here, and it was a huge 
success. So we will start now training the rest of the State on 
this success story. So it is a lesson learned, that we can take 
statewide. Those would be a few of the things.
    Mr. Issa. Now the earlier panel did mention the assets that 
were brought to bear late in the fire, particularly overhead 
architecture that gave greater visibility to where the fire 
was, and one might say where the red team, blue teams were, or 
could be.
    I mean, it is an area that clearly, you don't direct 
funding for, to bring to the battle. Is that an area, though, 
that you believe substantial resources should be brought, and 
if so, what resources?
    Ms. Ward. I do think it's a technology that we can benefit 
from. Several days into the fire, we turned to DOD and asked 
for some of their imagery resources, and they agreed to fly 
some of those resources, as a training mission, one, for 
themselves, but to see what actually we could benefit from, 
certainly at the incident commander level.
    And we do think, while we have not used it on fires much, 
in Southern California this was a true training mission, but I 
do think that they could benefit greatly from this technology, 
especially in an area like Southern California where your 
perimeters can be mapped and that can directly go back down to 
the IC to see how the fire is moving and the wind conditions.
    So it is not something that FEMA does but we certainly can 
mission-assign that task to those areas who do provide that 
technology, and from what we saw in the training missions, it 
was very successful and something that I think we should 
continue.
    Mr. Rey. There is one complication, though----
    Mr. Issa. Yes, Mr. Rey.
    Mr. Rey [continuing]. And that is that much of that 
technology is still classified, so the military would have to 
use it directly, or declassify it so civilian operators could 
use it. It will have to be one of those two things.
    Mr. Issa. And I have the good fortune of being on the 
Intelligence Committee, so I am well aware that we are not 
going to tell you the license plates of every vehicle in the 
area, to use something out of the television genre. But that is 
a challenge and I appreciate you bringing it to us.
    A couple more questions. Those resources, post the 
incident, in order to lock into time the actual damage done. It 
is obviously a resource you don't have.
    Is that a resource that would help you in accurately 
assessing who gets the letters? But also accurately assessing 
fraud that may be perpetrated after a major disaster?
    Ms. Ward. I think it would be beneficial in terms of 
getting into areas that we can't put our assessment teams down 
into quickly enough. But the specifics of damages not being 
able to be seen, like damages that we would say is major damage 
to a home, from smoke. If it wasn't burned to the ground, 
you're not going to be able to get that damage. So we would 
want to go back and----
    Mr. Issa. Even if it were declassified, that we can see the 
smoke damage inside a house.
    Ms. Ward. That is exactly right. So I do think that it 
would help us in significant disasters to be able to do that 
aerial, and we do do that, actually, in some widespread 
flooding, some hurricane damages, to actually keep from having 
to put boots on the ground to do that individual assessment.
    Mr. Issa. A little closer to home, we had an interesting 
conundrum, if you will, in reimbursement, that we haven't 
resolved, but I want to make you aware of it.
    The La Jolla Indian tribe, and the chairman is expected to 
be here shortly, was devastated in this fire. They were 
evacuated and many of them stayed in a hotel at the Pechanga 
Casino.
    Ms. Ward. Correct.
    Mr. Issa. Now Pechanga tribe did not say anything other 
than, you know, we are essentially closing off our casino rooms 
to make room. They made their hotel available and granted lots 
of other assistance.
    Now no good deed goes unpunished, unfortunately, in the 
Federal way of thinking. They offered a hotel. The hotel has a 
regular rate. The people stayed in them, and when I encouraged 
Pechanga to--even though they said, well, we would give it to 
them, I said, wait a second, they would much rather you give 
them the reimbursement as a separate gift, you provided 
something for which every other citizen was getting, you know, 
if eligible, was getting a reimbursement check.
    They were told that wasn't the case, that the tribes, even 
though separately incorporated, were being treated as one. 
Right now, we are a little frustrated in that La Jolla, 
desperately poor, doesn't have the money to rebuild, they are 
living in trailers out there, and the money that normally would 
have been paid to the hotel operator, which to be honest, 
Pechanga has said if they receive the reimbursement, they will 
separately gift that to La Jolla. But the Federal Government 
would normally pay for that.
    Can you think of a valid reason that we shouldn't pay for 
La Jolla Indian Reservation people who stayed in those hotels, 
won't get paid, while if a La Jolla Indian Reservation person 
went to any other hotel, they are getting reimbursed?
    Ms. Ward. Congressman, it is my understanding that the Red 
Cross, after about 4 days, provided reimbursement to the Rincon 
Harrah's as well as the casino. So I will look into that, to 
make sure.
    Mr. Issa. OK.
    Ms. Ward. But it was my understanding that there was about 
four or 5 days, when they evacuated to those places, that they 
weren't reimbursed. But it was about four or 5 days into the 
event, that we facilitated a meeting with the Red Cross and our 
tribal liaisons to have the casino reimbursed for the remainder 
of the stay.
    So I will look into that and be sure to get back to you.
    Mr. Issa. OK. And I appreciate it. The La Jolla are among 
the most challenged.
    Ms. Ward. That is correct.
    Mr. Issa. Quite frankly, they are what Indian tribes had in 
this area before casinos.
    Ms. Ward. That is right.
    Mr. Issa. And so it is an area where we are going to need a 
lot of rebuilding.
    I guess, do you have other things for me, or for this 
committee, that you think we should take away?
    Mr. Rey. One take-away that I would add is in responding to 
the first panel's discussion over night flying----
    Mr. Issa. Yes.
    Mr. Rey [continuing]. That is not merely a technology 
question. It is a safety question. The Forest Service 
discontinued night flying in a fire environment in 1978, after 
a midair collision between two helicopters whose pilots did 
have night vision goggles, resulted in the death of eight 
firefighters.
    So yes, there is technology available to facilitate night 
flying, but it is inherently less safe than flying during the 
day, because even night vision goggles in a firefighting 
environment have limitations, because the fire flares up, the 
fire is going to blind the pilot who is using night vision 
goggles.
    So it is a tradeoff, and it is a tradeoff, that if we make 
it the other way, we will undoubtedly increase the number of 
air fatalities that we experience.
    Mr. Issa. OK. Last but not least, are we doing enough? Do 
we have the resources defined for coordinating the after-action 
Federal, State and local? Or do you feel that, in fact, as much 
as there have been good things said about who is working with 
whom, as Federal entities, do you believe that the coordination 
of all these things, such as what we discussed here today, is 
formalized in a way in which they will be done before next fire 
season?
    Ms. Ward. Congressman, I can't speak to the firefighting 
resource activity and their after-action process, but I can 
tell you that in FEMA's case, we don't let anyone return home, 
quite frankly, without a multi-agency after-action sessions in 
each of their functional area of responsibilities. But I can't 
speak to the specific firefighting routines.
    Mr. Rey. With regard to the firefighting, the improvements 
that we have identified will be in place by the next fire 
season.
    Mr. Issa. Including those J model C-130's?
    Mr. Rey. Including the J models.
    Mr. Issa. OK. Last but not least, Ms. Ward, I will leave 
you with this. The trailers that need to be stored on an 
ongoing basis. Camp Pendleton has been suggested.
    One of the interesting things I find as the Congressman 
representing Camp Pendleton is my 129,000 acres can do 
everything. Just ask the people around the area.
    What I would like you to take back is nobody is pushing 
back on doing their fair share. But the history of trailers 
being stored and unused is not particularly good.
    And what I might ask you to seek is a dual use capability, 
that if those trailers can be reasonably used in some 
approvable way by the base, so that they not lay empty and 
unopened until needed, that might be the ultimate win-win.
    They are not asking to be paid for rental, but it occurs to 
me to have resources like that, it may be that in fact they 
should be made available for some Federal use.
    I joked, quite honestly, I joked with the base commander, 
the regional commander, about, oh, couldn't we store them on 
Del Mar Beach? He immediately thought that was just peachy. But 
quite frankly, there are possibilities that they could serve a 
dual use for transit personnel, military personnel, and I can 
assure you, they won't last any less time than they do sitting 
unmanned.
    And so if you could take that back, to see whether or not 
that could be accomplished.
    Ms. Ward. I will definitely do that.
    Mr. Issa. OK. And with that, I would like to thank my 
second panel. You have been good. I have been a little briefer. 
That is the advantage of having just one microphone and two 
people.
    OK. Then I will close this by thanking everyone who came 
here today. We are going to dispense with the third panel 
because we have hit the time, and the folks are not here. So 
without objection, that is it. Without objection, this 
concludes it. We are adjourned.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
